APPENDIX A
POST VERDICT MOTION May 8,2018
POST VERDICT BRIEF May 8,2018
C

EXHIBIT
EXHIBIT
EXHIBIT
EXHIBIT
EXHIBIT

2
3
4
5
7

•'s
i: •

* i

'i ^

District Court

State of Minnesota
Judicial District:
Court File Number:
Case Type:_______

County OF LYON

FIFTH
42-CR-14-600
CRIMINAL DIVISION

STATE OF MINNESOTA
Plaintiff

Notice of Motion and Motion
vs

Post Verdict Motion
Dismissal of Case 4-2-CR-14-600

ADOLFO GUTIERREZ AVILA JR.
Defendant
TO:

THE STATE OF MINNESOTA THROUGH ITS ATTORNEY RICK MAES, LYON
COUNTY ATTORNEY, 607 WEST MAIN ST., MARSHALL, MINNESOTA. 56258

NOTICE
I will ask the court for an Order at a hearing scheduled as follows:
Date:

May 15,2018

Time:

Name of
Courthouse:

LYON COUNTY
COURTHOUSE

Judicial Officer
(if known):

Street Address:

607 WEST MAIN ST.

City:

3:30 p.m.
JUDGE LELAND BUSH
MARSHALL, MN 56258

POST VERDICT MOTION:
I am asking the court for an Order as follows:
1.
UJ

o

uZ
UL
cty-r

z•
=1n
Q
m
u.

Defendant is requesting for criminal case 42-CR-14-600 be dismissed on the statute
of limitations has expired grounds and Due Process Violation Grounds under the Due

a

ll

Process Clause in the 14th Amendment of the Federal Constitution; (1) defendant’s

si?

constitutional right to present a defense was denied; (2) defendant’s constitutional right to

§co|

usf1
JoS

a full discloser of the facts was denied; (3) defendant’s constitutional right not to be

8^

punished as a pre trial detainee was denied.

CIV602

State

ENG

5/17

www.mncourts.gov/forms

Page 1 of 3

2. For Investigator Rolling mislead the court(constituting perjury) and withheld information
that proves the statute of limitations defense which evidence(cd of the July 25, 2011
interview of Maria Myran) was released after the June 30, 2015 Omnibus Hearing and
the March 18, 2018 Omnibus hearing depriving defendant the opportunity to present the
evidence relevant to the statute of limitations defense. For the Court applied the law
unfairly due to this actions constituting a Due Process Violation under the Due Process
Clause in the 14th Amendment of the Federal Constitution for the number one
requirement of procedural due process is for the law to be administered fairly. Which this
actions affected the overall case for defendant kept trying to gather all his evidence so in
turn had no choice but to keep asking for a continuence due to the withholding of this and
other evidence. Which even now there is still evidence that has not been disclosed_____ _
3. Defendant is a Gulf War Disabled Veteran and has P.T.S.D.; Severe depression; anxiety
but was denied treatment. Defendant never got to see a phsychaitrist or was never started
or given his medication. Which he requested several times when he was brought back
from Fairbault 10 months ago. The combination of being without the proper medication
to control defendant’s emotions and to be subjected to this corrupted Court proceedings
(aggressive and unfair prosecution) which defendant understands has been very dramatic
to defendant which it has been mental torture to be treated like crap of the record.
Which obviously due to the type of crime defendant is being charged with.
Defendant’s constitutional right not to be punished as a pre trial detainee was denied.
4. Relief defendant is requesting is the dismissal of this criminal case 42-CR-14-600.

THE REQUESTS ARE MADE PURSUANT TO: Mn Law 609.48 Perjury; Napue V. Illinois 3
LED2D 1217,360 U.S. 264; Mooney V. Holohan 79 LED 791,294 U.S. 103; Pyle V. Kansas 87 LED 214, 317
U.S. 213; Brady v. Maryland, 373 U.S. 83(1963) 83 s. ct. 1194, 10LED .2d 215; Blackmore v. Kalamazoo
County, 390 F.3d 890,384 (6th Cir.2004); State v. Albert Tupa Supreme Court of Minnesota 194 Minn. 488; 260
N.W. 875; 1935; State v. Krikorian, not reported in N.W.(2008); State v Danielski, 348 N.W.2d at 357.; Toussie
v.U.S.,397 U.S. 112,25L.Ed. 2d 156, 90 s.ct. 858(1970); U.S. v.Eliopulos, 45 F,777,781(D.N.J. 19421: .
1 ADOLFO GUTIERREZ AVILA MAKE THIS AFFIDAVIT THAT I SERVED BY MAIL A COPY OF THIS
MOTION: Dismissal of Case 42-CR-14-600 TO PROSECUTOR RICK MAES AT ADDRESS 607 WEST
MAIN ST., MARSHALL, MN 56258.
CIV602

State

ENG

5/17

www.mncourts.gov/forms

Page 2 of 3

(

Due to the tampering of defendant’s Motions (items defendant is attaching to
motions to support his arguments are not all being filed) all items to be attached
will now be listed in motion.
Items attached to this 3 page Post Verdict Motion:
(1)1 Post Verdict Brief dated May 8, 2018 ( 8 pages)
(2) 1 Statute of Limitations Fact Sheet 2011 (4 pages)
(3) 1 Xcel Energy letter dated May 13, 2015
(4) 1 Public Defender Investigator Report dated September 10, 2015 ( 2 pages)
(5) 1 Lyon County Sheriff Report dated July 24, 2006
(6) 1 Redwood court file 64-JV-l 1-69 transcript date June 23, 2011( 10 pages)
(7) 1 Maria Myran Interview dated July 25, 2011 transcript ( 29 pages)
(8) 1 Public Defender letter from Cecil Naatz dated May 1,2018
(9) 1 Lyon County Attorney Letter from Rick Maes dated April 19,2018
1 Soux Falls VA Discharge Summary dated September 19,2014 with

(10)

medication list ( 3 pages)

SAID MOTION is based upon arguments of parties, together with all pleadings, records
and files herein.

Date

CrtHj

S- S’- I 2

Signature

Printed Name:
Address:

(o If

/

J/-,
/Piaf\ SA

City, State, Zip:
CIV602

State

ENG

5/17

www.mncourts.gov/forms

Page 3 of 3

State Of Minnesota

State of Minnesota
Lyon County,
District Court File No: 42-CR-14-600

V.

Adolfo Gutierrez Avila Jr.
Defendant,

Post Verdict Brief
May 8, 2018

Authorities
Merriam-Webster (Dictionary of Law) Judicial System
Court and Law Enforcement Personnel: The officers of the court are persons assembled at the
court to administer Justice. They include the judge, who is the principal officer of the court, the
lawyer, the clerk of courts, the sheriff, the Marshall, the bailiff, and possibly a constable or a
court officer.
The Chief local law enforcement officer maybe called the prosecuting attorney, state
attorney, or district attorney.
Affidavit: a voluntary declaration of facts written down and sworn to by the declarant before an
officer authorized to administer oaths.
CASELAW:
State V. Krikorian, not reported in N.W. (2008) “In this inquiry, the originating source of a
report of abuse is irrelevant.”
State V. Danielski, 348 N.W. 2d at 357. “The Minnesota Appellate Courts have stated someone
actually brings the information to the proper law enforcement authorities, before the statute
begins to run. ”
In Toussie V. United States, 397 U.S. 112, 25L. Ed. 2d 156, 90 S. Ct. 858(1970) the U. S.
Supreme Court noted that, ” The purpose ofa statute oflimitations is to limit exposure to
criminal prosecution to a certain fixed period oftime following the occurrence of those acts the
legislature has decided to punish by criminal sanctions. Such a limitation is designed to protect
individuals from having to defend themselves against charges when the basic facts may have
become obscured by the passage of time and to minimize the danger of official punishment
because of acts in the far-distant past. Such a time may also have the salutary effect of
encouraging law enforcement officials promptly to investigate suspected criminal activity.”
nited States V. Eliopulos, 45 F. Supp. 777, 781 (D.N.J. 1942).
“Statute ofLimitations are founded upon the liberal theory that prosecutions should not be^
allowed to ferment endlessly in the files ofthe government to explode only after witnesses and
proofnecessary to the protection ofthe accused have by sheer lapsed oftime passed beyond
availability. ”
________________
■— --------------------------------State V. Albert Tupa, Supreme Court of Minnesota 194 Minn. 488; 260 N.W. 875; 1935
Minn. Lexis 1025; 99 A.L.R. 147 No. 30,429. May 24,1935. “The Failure to find the
indictment within the 3 year statute of limitations was a complete bar to the prosecution.”
1 out of 7 of Post Verdict Brief May 8, 2018

Question Presented
Has the statute of limitations expired on criminal case 42-CR-14-600?
Rule of Evidence Involved
Minnesota Statute, Section 628. (e)(2009) Indictments or complaints for violation of section
609.342 to 609.345 if the victim was under the age 18 years at the time of the offense was
committed, shall be found or made and filed in the proper court with in the later of the nine years
after the commission of the offense or within three years after the offense was reported to Law
Statement of The Case
Enforcement Authorities.
We present criminal case 42-CR-14-600 to Lyon County District Court by this brief for
dismissal. The charges are dated Count I (Jan. to June 2001) and Count II (May, June, July
2001). The complaint was filed on July 3, 2014 which is 13 years later. The July 3, 2014
complaint is based on the within three years after the offense was reported to Law Enforcement
Authorities clause not the nine year period. The report being used for this prosecution is Lyon
County Sheriffs Office report dated July 20, 2011.
Summary of Argument
Under the Due Process Clause in the Fourteenth Amendment of the Federal Constitution (and
Minnesota Constitution) we are entitled to due process of law so persons accused of wrong doing
are treated fairly. Information in reports, in letters, in emails, in transcripts and in recordings
(Maria’s July 25, 2011 interview) prove prejudicial errors were made which violated defendant’s
due process right. Even thou evidence is being withheld the intrinsic evidence is still very strong
to confirm the sexual misconduct was reported to the proper law enforcement authorities for sure
.
before Nov. of 2003 and in 2006. Thus proving the statute of limitations has expired on this
criminal case.
________ .___ ________ ________________ _________
First Report to Law Enforcement for sure before Nov. 2003
Investigator Tony Rolling has made a career out of law enforcement. He became a police officer
in 1997 for the Tracy P.D. then transferred to the Lyon County Sheriffs Office in Nov. of 2003.
Then became an investigator for the Lyon County Sheriffs Office in 2006 and continues till this
day to be employed by the Lyon County Sheriffs Office which will be 21 years this May.
When Ray Hay reported the suspected criminal sexual conduct “Adolfo Avila got his daughter
Maria pregnant” to Investigator Rolling which notified him of the allegations constituted the
reporting of the act; constituted the discovery of the crime and constituted official involvement.
The act (the pregnancy) was reported to him as a Tracy Police Officer for sure before Nov. of
2003. State V. Daniel Ski {348 N.W. 2d 356} thus the offense was officially discovered for sure
2 out of 7 of Post Verdict Brief May 8, 2018
before Nov. of 2003.

Which prompt him to investigate” But I was never able to substantiate that” As to the reason
defendant was not indicted or charged before Nov. 2003 is a question for Investigator Rolling
and the Lyon County Attorney’s office. In Daniel Ski {348 N.W.2d 356} the officers investigated
the information they received on July 29, 1983 and brought charges against the defendants on
August 26, 1983. In this case Investigator Rolling received the information before Nov. 2003 but
charges were filed until July 3, 2014 which is 11 years later. About 8 years before the July 20,
2011 report the prosecutor is using to justify the prosecution based on the “within three years
after the offense was reported to Law Enforcement Authorities.” in M.S. Section 628 (e) (2009).
Even thou Investigator Rolling is withholding information (the 2001-2003 report) his
own March 14, 2018 Omnibus hearing testimony under oath and the July 25, 2011 recorded
interview of Maria Myran prove the fact of the matter is Investigator Rolling was notified of the
allegations Maria got pregnant by her step-father (Adolfo Avila) while living at the trailer court
in Tracy, Minnesota in 2001. Investigator Rolling while interviewing Maria clearly describes the
color of the trailer (blue); the address (St. Greenwood); and location at the trailer court when he
was first told of the allegations that Maria got pregnant by her step-father (Adolfo Avila) which
they lived at this location in 2001 and 2002. Reference the transcript for the July 25, 2011
Interview of Maria Myran pg. 8 and 9. Reference Xcel Energy letter dated May 13, 2015
pointing out service started on July 5, 2001 to January 19, 2004 in the name of Adolfo Avila.
For at least 8 years Investigator Rolling was aware and could not substantiate the allegations that
Maria got pregnant by her step-father (Adolfo Avila) before he even interviewed Maria Myran
on July 25, 2011 and before he signed the July 3, 2014 criminal complaint for this criminal case
42-CR-14-600. Thus he volunteered this information to Maria while interviewing her because he
knew the allegations pertained specifically to her.
At the March 14, 2018 Omnibus Hearing defendant asked Investigator Rolling of why was he
not charged or arrested or even approached by Investigator Rolling in 2003 but Investigator
Rolling response was “I don’t know why I didn’t that long ago.” (3/14/20181. pg. 30 line 10)
Plain and simple Investigator Rolling was notified of the allegations “Adolfo got his daughter
Maria pregnant” for sure before Nov. 2003 when he was a police officer in Tracy, Minnesota
constituting the reporting of the act; constituting the reporting of the offense to the proper law
enforcement authorities which constituted the discovery of the crime constituting law
enforcement official involvement by Police Officer Rolling “But I was never able to
substantiate that”
This triggered the 3 year limitations period in M.S. Section 628 (e) (2009) and not the July 20,
2011 report like the prosecutor suggests which the 3 year limitations period can be triggered by
any source. State V. Krikorian, not reported in N.W. (2008) “In this inquiry, the originating
source of a report of abuse is irrelevant.”
3 out of 7 of Post Verdict Brief May 8,2018

The delay was caused by Investigator Rolling’s failure to follow procedure and properly
investigate the suspected criminal activity not by the defendant. Which it is ironic police officer
Rolling knew defendant by face and name and where he and Maria lived at the only trailer court
in the small community of Tracy, Minnesota. Defendant has lived in Tracy, Minnesota since
2001 until his arrest in 2014 except in 2006 and 2007 when he lived in Watertown, South
Dakota. Investigator Rolling has lived in Tracy, Minnesota since at least 2001 and still lives in
Tracy, Minnesota till this day.
In Toussie V. United States, the U. S. Supreme Court noted
that, ” Such a time may also have the salutary effect of encouraging law enforcement
/
officials promptly to investigate suspected criminal activity.”
Second Report to Law Enforcement in 2006
In the July 25, 2011 interview Maria told Investigator Rolling that she told Mary J. Stanton and
her social worker (in 2006) that Adolfo Avila was the father of her child and her step-father.
Maria had no idea how the child support started because Maria told them to report the abuse.
(Reference Maria’s July 25,2011 Interview pg. 22,23). This is why Prosecutor Nicole A. Sprinstead
wanted defendants DNA for investigation purposes to confirm allegations and it was not for
paternity establishment purposes in 2006. Reference August 2,2007 hearing from file 001438290802.
Maria’s affidavit dated May 31,2006 points out the age difference/significant relationship:
Part A
What is the legal name of the child? First Makeyla Middle Marie Last Herrera
Present age: 4 Date ofBirth 3-6-02
What is the mother’s legal name? Maria Clemencia Herrera
Date ofBirth: 12-29-85

Age: 20

Who is the father ofthis child named above? “Adolfo Avila Jr. ”
Part D
1. When and where did you first meet the father of this child? “At a party He married my mother
and he now step-dad. “
1. When did you first have intercourse with the father ofthis child? “July”
Which state? “Mn” City? “Tracy” County? “Lyon”
3. When did you have intercourse with him in which you believe resulted in this pregnancy?
“July”

Where? “At the house in Tracy, Mn”
4 out of 7 of Post Verdict Brief May 8, 2018

Mary Stanton’s Affidavit dated May 1,2007 points out age differences; sex allegations:
1. The name(s), address (es), and date(s) of birth is/are as follows:
*Adolfo Avila
*Born on 1/03/1971, in the County of Cook, in the state of IL.
* Maria Herrera
*The address is confidential and is on file with the public authority.
*Born on 12/29/1985, in the county of Uvalde, in the State of Texas.
*Makelya M. Herrera was born on 03/06/2002 in the County of Lyon, State of Minnesota.
4. At the time of the joint child (ren)’s conception, the parties had a sexual relationship.
Even thou the 2006 reciprocal report from the Human Services to the Lyon County
Attorney’s Office are being withheld. The paper trail does not lie. Lyon County Prosecutor
Nicole A. Sprinstead read both affidavits to prosecute the May 8, 2007 complaint which indicate
sexual abuse (Adolfo Avila is my step-dad and the father of my child) which it’s ironic the
entire 2007 paternity case is proof of what was reported. Constituting the reporting of the act;
constituting the discovery of the crime and constituting law enforcement official involvement
which in 2006 was Judge Jan Nelson; Lyon County Prosecutor Nicole A. Sprinstead; Lyon
County Sheriffs Office for they wanted defendants DNA for investigation purposes to confirm
allegations. Which according to the p.r.i.s.m. activity sheet the report (documentation) was sent
on August 11, 2006 to the Lyon County Sheriffs Office. Which Judge Jan Creg Nelson points
out in the August 2, 2007 hearing.“The record should reflect that this matter comes before
the court today pursuant to an order for continuance issued by this court—actually, an
order for genetic testing and order for continuance issued by this court on July 5,2007,
continuing the matter which wasn’t a paternity establishment matter. We’re hearing today
the court did, at the request of the oblige, order the parties in—including the obligor, to
appear when and where directed by the child support officer to provide a sample for
genetic testing and then continued the matter for a hearing today.
In the July 25, 2011 interview Maria Myran clearly points out to Investigator Rolling that
she wanted the 2006 DNA results to throw it in their face that she was not lying and when
Investigator Rolling asked if she wanted to see defendant in jail her answer was yes. The record
retention time period has not started so the Human services; Lyon County Court Administration
and the Lyon County Sheriffs Office should have a copy of the 2006 reciprocal report based of
Maria’s 2006 report (Adolfo Avila is my step-dad and father of my child) to Human services.
5 out of 7 of Post Verdict Brief May 8,2018

In Adolfo Avila Jr.’s affidavit dated June 15, 2017 he describes the allegations Maria made in
her May 31, 2006 affidavit “Maria’s version of events alleged that Maria and I met at a
party and we had relations and then I started dating her mom. Maria also points out she
got pregnant when she was 15 years old and that I am the biological father of her daughter
Maykela and that I am her step-father.”
How can defendant describe the allegations Maria made in her May 31, 2006 affidavit since
defendant received a copy of Maria’s May 31, 2006 affidavit until November 3, 2017?
**Because those are the allegations defendant read in the May 20,2007 report
(documentation) served on him but in narrative form. Manuela Avila (Maria’s mom) also
describes this allegations in her affidavit dated May 2, 2017 without even seeing Maria’s
May 31,2007 affidavit. **
Defendant’s constitutional right to a full discloser of the facts under the Federal
Constitution was denied constituting a Due Process Violation and a Brady Violation under the
Due process Clause of the 14th Amendment of the Federal Constitution. The 2001-2003 report
made by Investigator Rolling (Tracy Police Officer Rolling) was never disclosed; the 2006 report
to human services made by Maria Myran reporting the abuse was never disclosed; the 2006
reciprocal reports to Lyon County Sheriffs Office; to Lyon County Court Administration; to the
Lyon County Attorney’s Office were never disclosed; statements made by Maria for Investigator
Rolling mentioned in the July 25, 2011 Interview on pg. 29 were never disclosed.
Mary J. Stanton’s Affidavit dated May 1, 2007 and Maria’s Affidavit dated May 31, 2006 and
Lyon County Court file 001438290802 were not disclosed until November 3, 2017 which
defendant had a right to all along and kept asking for them since September 8, 2014.
Maria Myran’s July 25, 2011 recorded interview transcript was not disclosed to defendant until
one day before the trial which in prior hearings Investigator Rolling and Prosecutor Rick Maes
said on the record the July 25, 2011 recording did not exist.
Defendant has been in an uphill battle with the Lyon County Court Administration; Lyon County
Attorney’s Office and the Lyon County Sheriffs Office for evidence that defendant had a right
to all along in the first place. The withholding of reports relevant to the statute of limitations
defense in this criminal case is an open secret in the Lyon County Law Enforcement Community.
United States V. Eliopulos, 45 F. Supp. 777, 781 (D.N.J. 1942).
“Statute of Limitations are founded upon the liberal theory that prosecutions should not be
allowed to ferment endlessly in the files of the government to explode only after witnesses
and proof necessary to the protection of the accused have by sheer lapsed of time passed S
beyond availability.”
^__________ _______ _____________ _______
\

6 out of 7 of Post Verdict Brief May 8, 2018

This criminal case is a perfect example of why the right to the statute of limitations defense
should be applied to this case. Defendant finds himself trying to prove a case were the reports
that prove the facts are not available anymore; witnesses are not available anymore and the truth
has been seriously distorted. Maria moved out at age 17 (in 2003) with her daughter and was not
mad at anybody which she never had contact with defendant again.
On June 23, 2011 Maria had a deny/admit hearing where by her own free will gave up
legal custody of her daughter Maykela because of the unfortunate event that Maykela got
sexually abused by her step-father Corey Myran. Corey Myran was sent to prison and Maykela
was removed from the home permanently. Maykela was adopted by another family. This turn of
events was obviously devastating to Maria. Which a month later Maria Myran met with
Investigator Rolling and made the July 25, 2011 interview at the Lyon County Sheriffs Office
describing defendant as the worst person in the world.
The record and the paper trail do not lie defendant’s criminal case has been seriously
railroaded. Evidence (information) in the form of testimony under oath; Affidavits; transcripts;
recordings were released late or not released at all prejudicing the June 30, 2015 Omnibus
Hearing; the March 14, 2018 Omnibus Hearing and the Trial. Defendant respectfully request this
criminal case be dismissed on statute of limitations grounds and due process violation grounds
under the Due Process Clause of the 14th Amendment of the Federal Constitution.
State V. Albert Tupa, Supreme Court of Minnesota 194 Minn. 488; 260 N.W. 875; 1935 Minn.
Lexis 1025; 99 A.L.R. 147 No. 30,429. May 24, 1935. “The Failure to find the indictment
within the 3 year statute of limitations was a complete bar to the prosecution.”
State V. Danielski, 348 N.W. 2d at 357. “The Minnesota Appellate Courts have stated
someone actually brings the information to the proper law enforcement authorities, before
the statute begins to run. ”
Which in this criminal case someone did bring the information to Investigator Rolling for
sure before Nov. 2003 and someone did bring the information to the Lyon County Attorney’s
Office in 2006. Constituting the reporting of the act; constituting the discovery of the crime and
which constituted law enforcement official involvement before Nov. 2003 and 2006. The same
Lyon County Attorney Office and the same Lyon County Court Administration in Lyon County
brought and prosecuted the civil complaint filed on May 8. 2007 and the criminal complaint filed
on July 3, 2014 of the same matter. Seven years difference from one legal action to the next
which this legal actions can only be brought or made by law enforcement authorities.

Date:

S'H- }S

Sign:

11

7 out of 7 of Post Verdict Brief May 8, 2018

<1

a.

Case: 0:19-cv-03112-PJS-ECW

Document#: 59-0

Date Filed: 07/06/2021

Page 2 of

31

Exhibit 2

IR: Yep.

MM: That was the house where we moved to after the trailer court.
IR: But did you find out you were pregnant in Marshall or Tracy?
MM: Tracy, when I was in school in Tracy._______________ .—^
IR: So what made you guys move to
MM: Like we came to Marshall but we didn't live in Marshall we stayed here probably like a week and
they found the trailer and they got into the trailer right away, in Tracy. They rented a trailer there.
IR: In the trailer court?
MM: Mhmm
IR: And from there they moved to the farm?
MM: Yeah. It was
IR: Okay
MM: Yeah.

______

IR: So you found out in Tracy?
MM: Yeah, when I was in school.
IR: Okay. Living in the trailer court because I knew you guys lived in the trailer court sometime.
MM: Mhmm
IR: Was it the trailer house right when you come off of Greenwood?
MM: Yeah.
IR: You come in and it is right there?
MM: Yeah.
IR: Okay. Was it blue or something?
MM: Yeah.
IR: vup. And that is where you guys were living when I first heard about it. You guys were living in the
trailer court. Were your other sisters pregnant at that time or?
MM: Umm
“IRrOrhad'beeri?
MM: 1 think my sister Roxanne was pregnant. But I am not sure.
IR: Antonio would be

Exhibit 2
9

r~*-----Cdse. 0.19-U/-03112-PJS-ECW Documeni w: t>s-u
,
Qase: 0:19-cv-03112-PJS-ECW Document #?i-l
i

•

Date Filed: 07/06/2021 Page 3 of
Date Filed: 12/18/2019 Page 58 of 168

1

i

Exhibit 2
MM: You know. I told my friend, told my friends the truth.
IR: Okay. So did you guys end up moving?
MM: No verbal response given
IR: Okay.
MM: Just to the farm or whatever you want to call it
IR: Down by Tracy.
MM: Yeah.
IR: How old were you then? How long did
/ MM: I was still 16, she was probably, I don’t know a month or so old or something. When we moved out
/ there. Because I had her in March. I think she was under one for sure.
______ '
IR: Okay.
MM: And I tried leaving at 17 and they wouldn’t let me because they were like we’re going to call the
cops, call you in as a runaway and unfit mother and all this other
IR: Mhmm
MM: Stuff and I told them to do it.
IR: Have you always, you haven’t always lived at that house right?
MM: No. When I did eventually move out and I don't remember when but I did.
IR: did you guys move to the trailer house or your family move to the trailer court in Tracy for a bit?
MM: Not back then, no. Ever since we went to the house we haven’t gone back to the trailer court.
IR: Okay. Has Adolfo moved in and out?
MM: When I was there he was always there.
IR: He was always there.

'

MM: Yeah.
IR: There was a time he moved to Brookings or something for a while?
MM: Yeah. When they went after him for paternity test. He moved to Brookings, they at) moved to
Brookings.
IR: So that is when that happened? That is why he moved to Brookings.
MM: He moves around every time something
IR: When it starts to catch up with him.

Exhibit 2

6

? Case: 0:19-cv-03112-PJS-ECW

Document #: 59-0
31
Exhibit 2

Date Filed: 07/06/2021

Page 4 of

MM: I used to live with her. Like when I ran away from there. I moved in with her.
1R: On Roland?
MM: Yeah. 1 never go back there still.
IR: Did she have a boy named Tony?
MM: Tony.
!R: Gottskalskon, has a really weird name.
MM: Yeah, Gottskalskon, yeah.
IR: Yup, yup.
MM: And Kirby.
IR: Kirby, yup. He had blonde shaggy hair didn't he?
MM: Mhmm
IR: Yup. I kinda arrested that guy Paco Francisco Vasquez at her house. He was trying to rip her off.
MM: Oh.
IR: He fell asleep on her bed. Hahaha
MM: there's a lot of
IR: When did the sexual assaults from Adolfo stop? When he moved out?
MM: When I moved out.
IR: Okay, so before you were pregnant, did it occur, we will get into certain things, more detail.
MM: It occurred more than
IR: After the pregnancy?
MM: No, after the pregnancy it didn't happen.
IR: So after you were, gave birth to your daughter it never happened again.
MM: No.
IR: Okay. Was he doing this while you were pregnant?
MM: No.

V

IRLSo-basically-wben-you-found-ouLthat-yoiLwere^pregnanthe-stopped?

I

MM: Mhmm
IR: And that was when you were living in Marshall?
MM: No, it was still Tracy. Where my Mom lived at 3171 Hwy 14.

Exhibit 2

8

■'

Che: 0:19-cv-03112-PJS-ECW

agencyipt

Document#: 1-1

Date Filed: 12/18/2019

Page 82 of 168

EXHIBIT 3

NARRATIVE REPORT
Case Number: 11-11429

Date of Narrative: July 26, 2011

Report of Officer: Inv. Tony Rolling #104
Disposition; open. Fending Further Investigation
Evidence/Property:
On July 20, 2011,1, Inv. Tony Rolling received a reciprocal report from Marshall
Police Detective, Tim Tomasek. The report explained how Maria Myran had given
birth to her step-father's, Adolfo Avila, child. The report explained that Maria was
15 when she got pregnant by Adolfo, and was sixteen when she gave birth. The
address of where the sexual assault occurred was at 3171 US Hwy 14, Tracy. This
is a residence in Monroe Township in the Sheriffs Office's jurisdiction.
After getting the report, I had seen that Lyon County received the report from
Andrea Guetter at Redwood County Human Services. I called Andrea and spoke
with her about the report.
Andrea stated that Aldolfo Avila is paying child support for Makeyla Herrera.
Makeyla is the daughter of Maria Herrera and Maria is a stepdaughter to Adolfo.
Andrea stated that she has been in contact with Adolfo on several occasions in
regards to this matter. Andrea stated that Adolfo became the payer of child
support after multiple court.hearings and multiple DNA requests by human services.
Andrea stated that Adolfo never showed up for the court hearings and became the
father by default.
Andrea stated that approximately two to three weeks ago, Adolfo called her and
they spoke about the case. According to Andrea, Adolfo was dodging questions
about the conception of Makeyla. Andrea told Adolfo that he was invited to court
on the matter, but he did not show up. The conversation ended with Adolfo stating
that he was not the father of Makeyla.
Andrea stated that she has had several conversations with Adolfo on being the
father of Makeyla. Andrea stated that Adolfo at first claimed Makeyla as being his
daughter. In later conversations, Adolfo claimed that he was not the father, and
he would do what was needed to prove it. In further conversation, Adolfo refused
to give a DNA sample to prove or disprove him being the father. Andrea stated
that she asked Adolfo why he was paying child support if he was not the father, and
Adolfo stated that he was paying the child support to help Maria.
In speaking with Andrea, and Paulette Koch, Makeyla's Guardian Ad Litem,. I
learned that Marla and her family lived in Weslaco, Texas for a time, and that Maria
reported the sexual assault to the authorities there.
I called the Weslaco, Texas Police Department, and found that the only records for
either Adolfo or Maria were some minor traffic violations for Adolfo. I was advised
to call the Hidalgo County Sheriff's Office.

Page i of 3

EXHIBIT 3

EXHIBIT

13

CStee: 0:19-cv-03112-PJS-ECW
*

Document #: 1-1

Date Filed: 12/18/2019

Page 83 of 168

■

aqencyrpl

EXHIBIT 3
In speaking with a Detective with the Hidalgo County Sheriffs Office in Texas, I
learned that Maria's sexual assault was reported on June 7, 1999. The case was
listed as a Sexual Assault of Child, and I was given a case number of 99-9445. I
was advised that the address Adolfo and Maria at that time was Route 1 Box 362136A, Weslaco, Texas. I was also told that child protection was notified and took
part in the case.
____________________ _______ ___________________
'OrTjuly 25, 2011,1 conducted an interview with Maria Herrera at the Lyon County
Sheriffs Office.
I began speaking with Maria, and introduced myself. I explained that prior to
working at the Lyon County Sheriffs Office, i had been a Police Officer with the city
of Tracy. I explained that while working there, I had heard a rumor that Adolfo
Avila had gotten his daughters pregnant, but I was never able to substantiate that.
I explained that I was somewhat familiar with the situation, and if she could tell me
what had all occurred.
__________ ________________________________
(tygrid stated that her family has always moved around. Maria stated that when she
was nine or ten, her mother met Adolfo while they were living in Pelican Rapids.
Maria stated that there was some possible trouble, so they moved to Weslaco,
Texas where they built a house. Maria stated that the sexual assaults began in
Weslaco. Maria stated that she had been sexually assaulted by Adolfo, and told her
mother about the assault. Maria stated that her mother, did not believe her, and
Adolfo kept assaulting her. Maria stated that she ended up telling a school
counselor about the assault, and when she had gotten home, a worker from CPS
(Child Protective Services) was there at her home. Maria stated that her family
kept telling her that she was lying, and Maria was unsure if her sisters were being
assaulted there or not Maria stated that Adolfo was not able to live in the home
after the report, and that she, deal with her family because of what was going on.
Maria stated that she moved out of the home and went to live with her aunt,
Sanjuanita. Maria stated that she lived with Sanjuanita for approximately six
months, and returned home. When she got back home, Maria's mother told her
that she and Adolfo had gotten married, and soon after, Adolfo moved back into the
home. Maria stated that she was not around eleven years old, and as soon as
Adolfo moved back, the sexual assaults started again. Approximately a year later,
when Maria was approximately twelve or thirteen, Maria stated that her sister
Roxanne had gotten pregnant while she was in high school. Maria was not sure
how old her sister was at the time. Maria stated that when the family found that
Roxanne was pregnant, they moved to Marshall, MN, very quickly, almost
overnight. Maria stated that they lived in Marshall for a short time, and that they
then moved to into the Tracy trailer court. Maria stated that she got_pregnantwhile
living in Tracy, and that when she got pregnant and everyone round out, Adolfo
stopped the sexually assaultlrigner.
I asked Marla if she knew if Adolfo was sexually assaulting her sisters, Roxanna and
Michelle. Maria stated that she was In the In the house when her sisters were
sexually assaulted by Adolfo. Maria thought that Michelle was eighteen years old
when she, Michelle, was being assaulted by Adolfo. Maria stated that she was sure
Page 2 of 3

EXHIBIT 3

I .

Case: 0:19-cv-03112-PJS-ECW
*

Document.#: 1-1

Date Filed: 12/18/2019

Page 84 of 168

■« *

apencyrpt

EXHIBIT 3
i

that Michelle's son Michael and Roxanna's daughter Jasmin are children of Adolfo,
but she was unsure about Ronsanna's son Antonio (Angel).
i

I then spoke to Maria about the actual assaults. Maria stated that she was unsure
of the numbers of times. Marla stated that the assaults would occur when her
mother had left the house. Maria stated that she could tell In Adolfo's demeanor,
... —that-she was golng-to b&assaulted-Mariastated-that-Adolfo* would look-at-her-a --certain way, and that she would then try to leave or get out of the house. Maria
said that she would physically fight off Adolfo, but that he would hit her to get her
to comply with him. Maria stated that it finally got to a point that she wouldn't
fight it anymore, because if she fought it, she would get hit. Maria stated that
every assault was vaginal sex, and that afterwards, Adolfo would tell her to keep
her mouth shut. Maria said that she was assaulted approximately twelve to fifteen
times in Texas, and that when she reported it, the report was given after the first
time. Maria said that she was sexually assaulted in Marshall at Adolfo's translation
office in Marshall once, and sexually assaulted in Tracy twice. Maria became
pregnant while living in Tracy.
..

I asked Maria how this came out that Adolfo was the father to Makeyla, and Maria
stated that when she went to get benefits, she had to give the father's information
for child support. It appears that Redwood County human services realized not to
long ago that Adolfo is the father of both Maria, and Maria's daughter Makeyla.
On July 26, 2011,1 met with Carla Drown at SHHS in regards to Adolfo and him
paying child support. Carla gave me printouts showing that Adolfo began paying
child support on February 24, 2008, and is currently still paying child support. The
printout also shows that from April 2008 through May 2009, the child support was
coming directly form Adolfo's paycheck at Southwest Initiative Foundation in
Hutchinson. The printout states that Maria is the Custodial Parent (CP) and that
Adolfo is the Non-Custodlai Parent (NCP).
Attached to this case file, will be a copy of the reciprocal report and child support
list payment from SWHHS.
Case under investigation.

EXHIBIT 3

Page 3 of 3

* "““Case: 0Tl9-cv-03112:PJ^-E^W

W« CW

Document#: 59-0

Date File^: 07/06/2021

*

31

Exhibit 4
v®
1414 West Hamilton Avenue
P.O. Box 8
Eau Claire, Wl 54702-0008

May 13, 2015

ADOLFOG AVILA
203 BENSON STREET
EVALDETX 78801

Dear Adolfo G. Avila:
Thank you for your inquiry concerning verification for the period of time service
has been in your name at the address listed below.
Our records show the following:
Customer Number:

51-4969678-4

Service Name:

Adolfo G. Avila
Manuefa H. Avila

Service Address:

600 Greenwood Ave., Lot 16, Tracy, MN

Service Dates:

07/05/2001-01/19/2004

Xcel Energy is committed to working with you to provide quality customer
service. If you have additional questions about your account, please call us at 1800-895-4999 or visit us at our website www.xcelenerqy.com.

Sincerely,

Xcel Energy
Customer Contact Center

Exhibit 4

Received Time Jun. 9. .2015 10:29AM No. 2575

w

Page 6 of

IV V>VI ,vv

Lyon County,

EXHIBIT 5
STATE OF MINNESOTA

IN DISTRICT COURT

COUNTY OF LYON

FIFTH JUDICIAL DISTRICT

State of Minnesota,

District Court File No. 42-CR-14-600

Plaintiff,

Appellate Court File No. A16-0516

vs.
Adolfo Gutirrez Avila,

Omnibus Hearing

a/k/a Adolfo Gutirrez Avila, Jr.,
Defendant.
•A-************************.*******

TRANSCRIPT OF PROCEEDINGS
Volume 1 of 1
********************************

The above-entitled matter came before the Honorable Leland
Bush, Judge of District Court, at the Lyon County Government
! I

Center, Marshall, Minnesota, on June 30, 2015 at 9:00 A.M.
*******************************

APPEARANCES
The State was represented by Lyon County Attorney Richard Maes
of Marshall, MN.

The Defendant was represented by Attorney

Kasprick of Marshall, MN.

The Defendant appeared in person.

EXHIBIT 5
Darla M. Madsen
Certified Court Reporter
Marshall, Minnesota

T1

o/zo/zu 10

;oa

Lyon County,

EXHIBIT %
State V. Avila / Rolling - Direct by Maes
1

Q.

2

4

And specifically involved sexual intercourse when the alleged
victim was approximately fifteen years old?

3

A.

Correct.

4

Q.

Now, Officer, can you tell us when this matter was first

5

reported to the Law Enforcement Agency?

6

A.

I received the report in July of 2011.

7

Q.

And do you recall specifically what day it was?

8

A.

I believe it was the 20th.

9

Q.

Alright.

10

Now, you received a report from the victim or from

someone else?

11

A.

I received a report from Human Services, a reciprocal report.

12

Q.

Was that the first time you were notified of any alleged

13

misconduct involving Mr. Avila and the alleged victim?

14

A.

That was the first time it was reported to me.

15

Q-

Okay.

Now, to the best of your knowledge, was the incident

16

well, I'll get back to that.

17

alleged victim?

Did you end up contacting the

18

A.

I did.

19

Q.

And do you remember when that occurred?

20

A.

Within -- I think within five days.

21

I believe it was July

25th.

22

Q.

Okay. So shortly after you received the reciprocal?

23

A.

Yes .

24

Q.

Now, did the alleged victim disclose reports of sexual

25

misconduct?
EXHIBIT 5
T5

Case: 0:19-cv-03112-PJS-ECW
\

i.

Document #: 59-0
31

Date Filed: 07/06/2021

Page 8 of

r

Exhibit 7
stated that the defendant would tell her to keep her mouth shut about the assaults.
Inv. Rolling has attempted to locate the defendant since these incidents were reported. He went
to the residence where the defendant and "Victim A" were living at the time of the assaults and
spoke to the defendant’s step-daughter who is currently residing at the residence. She stated
that the defendant moved a few years ago and that she hasn’t heard from him, but believed he
may be in Texas. However, approximately a half hour after the visit, the defendant called Inv.
Rolling and stated that he had heard that Inv. Rolling was looking for him. The defendant
claimed that he was currently in Sioux City but would not provide an address or give a number
he could be reached at. Inv. Rolling explained what he wanted to talk to him about and the
defendant stated that he didn’t want to talk anymore. Given the fact that the defendant’s
whereabouts remain unknown, a warrant is being requested in this matter.
Complainant requests that said Defendant, subject to bail or conditions of release, be:
(1) arrested or that other lawful steps be taken to obtain Defendant's appearance in court; or
(2) detained, if already in custody, pending further proceedings; and that said Defendant
otherwise be dealt with according to law.
OMPLAINANT’S SIGNATURE:

COMPLAINANT’S NAME:
Tonv Rolling. Lvon Countv Sheriffs Dept

Subscribed and sworn to before the undersigned this 3
NAME/TITLE:

ci

day of ~Vu\

, 20 A .

SIGNATl

Being authorized to prosecute the offense(s) charged, I approve this Complaint.
Date: July 3 2014

PROSECUTING ATTORNEY’S SIGNATURE:

(jfo- 0 ft- ^
Richard R. Maes
Lyon County Attorney
607 West Main Street, Marshall, MN 56258
(507) 537-6755
Attorney Registration #: 203221
Exhibit 7

Page 3 of 6

.

j!-

APPENDIX B
APPELLANT'S STATEMENT OF THE CASE
APPELLANT'S BRIEF 1-25-2017
REVERSED AND REMANDED May 22,2017
opinion unpublished
AFFIRMED August 5,2019
opinion unpublished

f •

A18-1567
STATE OF MINNESOTA
IN COURT OF APPEALS

State of Minnesota,
Respondent,
vs.
Adolfo Gutierrez Avila, Jr.,
Appellant.

APPELLANT’S STATEMENT OF THE CASE
KEITH M. ELLISON
State Attorney General
1800 Bremer Tower
445 Minnesota St.
St. Paul, MN 55101

OFFICE OF THE MINNESOTA
APPELLATE PUBLIC DEFENDER
JENNA YAUCH-ERICKSON
Assistant State Public Defender
License No. 0392035

RICK MAES
Lyon County Attorney
Lyon County Courthouse
607 West Main Street
Marshall, MN 56258

540 Fairview Avenue N
Suite #300
St. Paul, MN 55104
(651)201-6700

ATTORNEYS FOR RESPONDENT

ATTORNEY FOR APPELLANT

Subject Matter Index Numbers:

Argument I: 10H00
Argument II: 10K00

H68

A18-1567
STATE OF MINNESOTA
IN COURT OF APPEALS

State of Minnesota,
Respondent,
vs.
Adolfo Gutierrez Avila, Jr.,
Appellant.

PROCEDURAL HISTORY
January-July, 2001

Date range of alleged offenses.

July 3, 2014

The State charged appellant with two counts of first-degree
criminal sexual conduct, Minn. Stat. § 609.342, subds. 1(g),
i(h)(ii).

September 22, 2015

Plea hearing. Appellant pleaded guilty to one count of
criminal sexual conduct and the State dismissed the
remaining count.

December 29,2015

Sentencing. The district court denied appellant’s motion to
withdraw his guilty plea and sentenced appellant to 144
months in prison.

March 30, 2016

Appellant directly appealed his guilty plea.

1
H69

May 22, 2017

This Court reversed and remanded for withdrawal of
appellant’s guilty plea.

March 14, 2018

Reopened omnibus hearing, the Honorable Leland Bush
presiding.

April 9,2018

Order denying appellant’s motion to dismiss based on statute
of limitations.

April 24,2018

The State filed an amended complaint which corrected the
alleged dates of the offenses.

April 25, 2018

Jury trial before Judge Bush. The jury returned two guilty
verdicts.

June 26,2018

Judge Bush sentenced appellant to two terms of 144 months,
to be served consecutively.

2
H70

LEGAL ISSUES
I.

Where a concerned citizen reported to a police officer in 2003 a sexual assault
committed by Avila, and the State did not file charges against Avila for eleven years,
were those charges barred by the statute of limitations?
The district court ruled that the 2003 report did not trigger the statute of limitations.
(Doc. 368.)
Apposite Authority
Minn. Stat. § 628.26, subd. (d) (2000)
State v. Soukup, 746 N.W.2d 918 (Minn. App. 2008)

II.

Did the district court err by doubling the length of Avila’s sentence following
remand from this Court and thereby punishing Avila for his successful appeal?
The district court increased Avila’s sentence from 144 months to two consecutive
terms of 144 months. (Docs. 147,433.)
Apposite Authority
Alabama v. Smith, 490 U.S. 794 (1989)
State v. Vang, 847 N.W.2d 248 (Minn. 2014)

3
H71

STATEMENT OF THE CASE
On July 3, 2014, the State charged appellant Adolfo Avila by complaint in Lyon
County with two counts of first-degree criminal sexual conduct, Minn. Stat. § 609.342,
subds. 1(g), l(h)(ii). The charges related to conduct that allegedly occurred in 2001. Avila
raised a statute of limitations defense and litigated that defense for over six months, in ten
district court hearings. Ultimately, the district court denied his motion to dismiss on
limitations grounds. Avila entered a guilty plea to one count and the State dismissed the
remaining count. The district court denied Avila’s pre-sentencing motion to withdraw his
plea and sentenced him to 144 months in prison.
Avila directly appealed and this Court reversed and remanded to allow Avila to
withdraw his guilty plea. Upon remand, Avila waived his right to counsel, proceeded pro
se, and continued to litigate his statute of limitations defense for another eleven months in
over twenty hearings. After a reopened omnibus hearing the district court denied Avila’s
motion to dismiss on limitations grounds.
The case proceeded to a jury trial, the Honorable Leland Bush presiding, and the
jury returned two guilty verdicts. Judge Bush sentenced Avila to two terms of 144 months
to be served consecutively, doubling the sentence Avila received after his initial guilty plea.
This appeal follows. Avila asks this Court to reverse his convictions because a 2003
report to law enforcement triggered the statute of limitations and the complaint filed eleven
years later, after the limitations period expired, was time barred. In the alternative, Avila
asks this Court to reverse his sentence because the district court erred by doubling Avila’s
sentence on remand and punishing him for exercising his right to appeal.
4
H72

STATEMENT OF THE FACTS
Adolfo Avila has multiple stepdaughters by marriage.

(T. 110-11.)

One

stepdaughter is M.H. At trial, M.H. testified that their family moved from Texas to
Minnesota in 2000. (T. 111-12.) The family lived first in Marshall, Minnesota and later
moved to the city of Tracy. (T. 112-13.)
M.H. testified that in 2001, when she was fifteen, Avila sexually assaulted her more
than ten times. (T. 113-15.) M.H. testified that the assaults occurred when her mother was
out of the house and Avila would remove her clothes and “force himself on [her].” (T.
114-15.) She testified that the assaults included “intercourse” and that she sometimes
i

fought back but Avila would hit her or threaten her. (T. 114,119.) M.H. testified that she
could not remember exact dates but that these assaults occurred in Marshall between
January and April 2001 and in Tracy in the summer of 2001. (T. 114-15.) M.H. testified
that she told her mother about the assaults but her mother did nothing in response. (T.
119.)
M.H. testified that she became pregnant when she was fifteen and her daughter was
bom March 6, 2002. (T. 116.) M.H. testified that she believed conception of her daughter
had occurred in June 2001. (T. 116.) She testified that Avila was the father of her child
and that she had no other sexual partners. (T. 116.) Several years later M.H. sought
government assistance which led to Avila being adjudicated the father of M.H.’s daughter
based on DNA testing. (T. 117.)
M.H. testified that she first reported the sexual assaults to the police in 2011. (T.
117.) In July 2011, Investigator Tony Rolling received a “reciprocal report” from a social
5
H73

services agency that had become aware of M.H.’s sexual assault allegations. (T. 148.)
Rolling conducted a recorded interview with M.H. on July 20, 2011. (T. 149.) As part of
the investigation into M.H.’s report, the BCA tested DNA samples from Avila, M.H., and
M.H.’s daughter and determined with 99% certainty that Avila was the father. (T. 19596.)

6
H74

K

ARGUMENT
I.

AVILA’S CONVICTIONS MUST BE REVERSED BECAUSE THE
LIMITATIONS PERIOD EXPIRED YEARS BEFORE HE WAS CHARGED
The criminal conduct alleged in this case occurred in 2001. Avila was not charged

until 2014. The applicable statute of limitations has two parts: the criminal sexual conduct
offenses had to be charged either within nine years of the commission of the offense or
within three years from a report of the offense to law enforcement.

The offenses

unquestionably were not charged within nine years of commission. The State has argued
that Avila was properly charged within three years of M.H.’s 2011 report to law
enforcement. But because the same conduct was reported to law enforcement in 2003, the
statute of limitations expired in 2006. The State did not file charges until after the
limitations period expired, and therefore the district court should have dismissed the
complaint as time barred.
A.

Standard of Review

This Court reviews de novo the construction and application of statutes of limitation.
State v. Carlson, 845 N.W.2d 827, 832 (Minn. App. 2014).
B.

Avila’s Conduct was Reported to Law Enforcement in 2003

The State charged Avila on July 3,2014, with two counts of criminal sexual conduct
which collectively alleged conduct occurring between January and July 2001. (Doc. 403.)
M.H. reported the conduct to law enforcement on July 20, 2011. (T. 149.)

7
H75

At numerous hearings, both before and after Avila withdrew his guilty plea, he
litigated a statute of limitations defense. Most of the evidence relevant to the statute of
limitations claim was adduced at the reopened omnibus hearing. (Doc. 371.)
When M.H. reported the sexual conduct in 2011, she gave a recoded interview to
Investigator Tony Rolling of the Lyon County Sheriffs Office. (T. 147, 149.) But 2011
was not the first time Rolling learned of the allegations. Rolling had previously worked
for the Tracy police department, from 1997 to 2003. (Doc. 371 at 7.) During his
employment with Tracy police, a person named Ray Hay reported to Rolling that Avila
committed criminal sexual conduct against his stepdaughters, resulting in pregnancy.
(Doc. 371 at 9, 20-21.) Rolling recalled that Hay told him, “Adolfo Avila had gotten his
[stepdaughters pregnant.” (Doc. 371 at 9, 20-21.) Despite the serious nature of this
allegation, Rolling wrote no police report and did no investigation. (Doc. 371 at 12, 18.)
Rolling documented Hay’s report various times during his 2011 investigation.
Rolling’s 2011 police report noted that he had heard a “rumor” of Avila’s criminal sexual
conduct when he worked for Tracy. (Doc. 371 at 8-9.) During his interview with M.H.,
Rolling discussed the trailer home in Tracy where M.H.’s family lived in 2001 and said
“that is where you guys were living when I first heard about it.” (Ex. 26 at 9.)1 Indeed,
something like fifteen years later Rolling was able to remember with relative certainty that

1
The district court received the recording and transcript of Rolling’s July 20, 2011
interview with M.H. as post-trial exhibits in order to ensure a complete record for appeal.
(T. 246-47; Doc.415.)
8
H76

it was Ray Hay, who worked at the Tracy Bakery, who originally reported the crime. (Doc.
371 at 20-22.)
C.

The State was Required to Charge Avila Within Three Years of Any
Report to Law Enforcement ________
______

“[T]he purpose of the statute of limitations is to limit exposure to criminal
prosecution to a certain fixed period of time and to prevent defendants from having to
defend themselves against overly stale charges.” Carlson, 845 N.W.2d at 833 (internal
quotation omitted). A statute of limitations is a jurisdictional bar to prosecution. Id. Three
main rationales animate statutes of limitation: 1) protecting defendants from delayed
prosecution where the facts “may have become obscured by the passage of time,” 2)
minimizing “the danger of official punishment [for] acts in the far-distant past,” and 3)
encouraging law enforcement to promptly investigate suspected criminal activity. State v.
Danielski, 348 N.W.2d 352, 355 (Minn. App. 1984) (quoting and citing Toussie v. United/
States, 397 U.S. 112, 115-16 (1970)).
Indictments or complaints for violations of sections 609.342 to 609.345 if the
victim was under the age of 18 years at the time the offense was committed,
shall be [filed] within nine years after the commission of the offense or, if
the victim failed to report the offense within this limitation period, within
three years after the offense was reported to law enforcement authorities.
Minn. Stat. § 628.26, subd. (d) (2000).
In order to trigger the statute of limitations in § 628.26, subd. (d), a person must
have reported “the offense,” that is, the particular conduct that constitutes the crime
charged in the complaint. State v. Swan, No. A15-0832, 2016 WL 764395, at * 3 (Minn.
App. Feb. 29,2016). As this Court has recently stated, a report must contain “enough detail
9
H77

to put the authorities on notice that a specific criminal offense may have occurred.” State
v. Keller, No. A18-0664, 2018 WL 4289716, at *4 (Minn. App. Sep. 10, 2018). Such a
report triggers the statute of limitations even if “more detail may have been necessary to
charge the alleged offense.” Id. Nor is “the complaining witness’s cooperation [required]
before the relevant charging deadline is triggered.” Id. In order to qualify as a “report”
under § 628.26, it must be a “report to law enforcement authorities.” State v. Soukup, 746
N.W.2d 918, 922 (Minn. App. 2008).
As this Court has noted, the § 628.26, subd. (d) statute of limitation contains two
alternative limitation periods. State v. Krikorian, No. A06-1530, 2008 WL 68841, at *2-4
(Minn. App. Jan. 8, 2008). The “general limitations period” is nine years. Id. at *3. The
listed offenses must generally be charged within nine years of commission. Subdivision
(d) also contains a second period that is an exception to the first. Id. In cases where the
victim did not report the offense within nine years, a three-year limitation period applies
and is triggered by a report to law enforcement by any person. Id. The statute “does not
restrict from whom a report of abuse may originate in order to trigger the running of the
three-year limitation period.” Id.
D.

The Statute of Limitations Expired Before the State Charged Avila

When a criminal offense is a continuing one, the statute of limitations begins to run
when the offense ends. Soukup, 746 N.W.2d at 921. Avila’s conduct ended, at the latest,
on July 31,2001.
It is undisputed that the State did not charge Avila within the general nine-year
period in § 628.26, subd. (d). The State has instead argued that the three-year exception
10
H78

period applies because M.H. did not report to law enforcement within nine years but first
reported in 2011. According to the State, it charged Avila within three years of M.H.’s
2011 report and therefore the prosecution was not barred. The State is wrong because the
2003 report to Rolling triggered the three-year limitation period, which expired in 2006.
The State failed to charge Avila within either the general or the exception period. The
district court should have granted Avila’s motion to dismiss.
Ray Hay’s statement to Rolling in 2003 triggered the statute of limitations. The
report was made to Rolling, a law enforcement officer. And it contained enough detail to
put Rolling on notice that a crime had occurred and to constitute a report of “the offense”
charged in the complaint.

At a minimum, the report informed Rolling that Avila

impregnated his stepdaughter. This statement clearly encompasses sexual penetration, as
a pregnancy resulted.

And the report involved a minor victim and the significant

relationship between the victim and Avila.
Rolling protested that this report did not provide him enough information, but as
this Court has held, a report need not contain enough information to charge an offense in
order to trigger the statute of limitations. It is no doubt true that the Ray Hay report would
not have been enough to file a complaint. But it certainly put Rolling on notice that a crime
may have occurred. Rolling also deflected responsibility by labelling the Ray Hay report
a “rumor.” The investigator’s semantic choice of a label does not affect the legal analysis.
Rolling was able to identify the time and source of the information. He did not hear the
information whispered in a crowded room of people. A concerned citizen gave a police

11
H79

officer information about an intra-familial sexual assault. That was enough to trigger an
obligation to investigate and charge within the limitations period.
The Danielski concerns are all present in this case. See Carlson, 845 N.W.2d at
833. By permitting the time-barred charges to proceed, the district court subjected Avila
to prosecution even though the delay obscured many facts and subjected him to punishment
for distant acts. Moreover, it allowed the State to avoid “properly investigating] suspected
criminal activity.” Statutes of limitation exist to avoid all these problems. The State failed
to charge Avila within either three years of the report to law enforcement or within nine
years of the commission of the offense. The complaint should have been dismissed and
this Court should reverse Avila’s convictions.

12
H80

II.

THE DISTRICT COURT PENALIZED AVILA FOR HIS SUCCESSFUL
APPEAL BY DOUBLING THE LENGTH OF HIS SENTENCE ON
REMAND
Avila originally pleaded guilty to Count 1 of the complaint and the district court

imposed the presumptive guidelines sentence of 144 months. After a successful appeal to
this Court, Avila withdrew his guilty plea and elected a jury trial. Following guilty verdicts
on both counts, the district court sentenced Avila to two consecutive terms of 144 months,
one for each count, doubling the length of his sentence. Because this sentence penalized
Avila for a successful appeal and because it is excessive, this Court should remand for
reduction of the sentence to 144 months.
A.

Standard of Review

While this Court typically reviews sentences for an abuse of discretion, State v.
Franklin, 604 N.W.2d 79, 82 (Minn. 2000), when a challenge to a sentence is based on an
issue of law it is subject to de novo review. State v. DeRosier, 719 N.W.2d 900,903 (Minn.
2006).
B.

The District Court Doubled Avila’s Sentence On Remand

The State charged Avila with a two-count complaint on July 3, 2014. (Doc. 2.)
Both counts charged first-degree criminal sexual conduct against M.H. and involved sexual
penetration with a person under 16 and a significant relationship. (Doc. 2.) The two counts
covered different time periods. (Doc. 2.) And Count 1 contained the additional element
of personal injury in the form of pregnancy. (Doc. 2.) On September 22, 2015, Avila
pleaded guilty to Count 1 and the State dismissed Count 2. (Doc. 166 at 8.) Per the
agreement of the parties, the district court sentenced Avila to a term of 144 months, the
13
H81

presumptive guidelines sentence with Avila’s criminal history score of zero. (Doc. 166 at
8; Doc. 147.)
Avila directly appealed his conviction and this Court reversed and remanded for
plea withdrawal. State v. Avila, No. A16-0516,2017 WL 2223950, at *1 (Minn. App. May
22, 2017). Avila withdrew his plea and, following significant pretrial litigation, elected a
jury trial. The jury found him guilty of both counts. (Doc.412.) The district court entered
conviction on both counts and imposed sentence on both counts. (Doc. 433.) The court
sentenced Avila to two terms of 144 months, to be served consecutively. (Doc. 433.) Avila
argued that the court could not increase the length of his sentence after his successful
appeal. (Doc. 442 at 8.) The court gave no reasons for any part of the sentence. (Doc.442
at 9-14.)
C.

District Courts Generally May Not Increase Punishment on Remand
After a Successful Appeal

This Court reviews a sentence to determine “whether the sentence is inconsistent
with statutory requirements, unreasonable, inappropriate, excessive, unjustifiably
disparate, or not warranted by the findings of fact issued by the district court.” Minn. Stat.
§ 244.11, subd. 2(b). A reviewing court may vacate or set aside a sentence and also may
direct entry of an appropriate sentence or order further proceedings. Id. A court “may at
any time correct a sentence not authorized by law.” Minn. R. Crim. P. 27.03, subd. 9. An
unauthorized sentence includes a sentence that is based on “an error of law.” State v.
Humes, 581 N.W.2d 317, 320 (Minn. 1998).

14
H82

The Minnesota Supreme Court has adopted, “as a matter ofjudicial policy,” the rule
that a defendant who receives a new trial after a successful appeal may not receive a
“sentence more onerous than the one he initially received.” State v. Holmes, 161 N.W.2d
650, 652 (Minn. 1968). “[A]ny increase in penalty upon a retrial inevitably discourages a
convicted defendant from exercising his legal rights and is contrary to public policy.” Id.
at 653. This prohibition on increased sentences after a successful appeal also has a
constitutional dimension. The due process clause is violated when a defendant is penalized
for exercising his right to appeal by the imposition of a more onerous sentence on retrial.
North Carolina v. Pearce, 395 U.S. 711, 725-26 (1969). A presumption of vindictiveness
applies when a defendant receives a more onerous sentence upon retrial. State v. Carver,
390 N.W.2d 431, 434 (Minn. App. 1986).
When a more onerous sentence is imposed upon remand than was first imposed after
a guilty plea, the presumption of vindictiveness does not apply. Alabama v. Smith, 490
U.S. 794, 801 (1989). But a defendant may still prove that the longer sentence violates due
process. State v. Vang, 847 N.W.2d 248,265 (Minn. 2014). In such circumstances, courts
assess whether there is a justification for imposing a harsher sentence after the successful
appeal. Id. These considerations include whether the more lenient sentence after the guilty
plea was the result of the prosecutor’s recommendation, whether the information adduced
at trial about the nature and extent of the crimes warrants an increased sentence, and
whether the defendant’s conduct in court provided insight into his moral character and
suitability for rehabilitation. Id. Because the presumption does not apply after an initial

15
H83

guilty plea is reversed, a defendant who receives a longer sentence on remand in such
circumstances must prove the judge acted vindictively. Id.
D.

This Court Should Reduce Avila’s Sentence Because By Doubling its
Length the District Court Punished Him for a Successful Appeal

The district court doubled the length of Avila’s sentence on remand. Because the
twelve-year increase unfairly punished Avila for exercising his right to appeal, this Court
should reverse for imposition of the original 144 month sentence.
The district court offered no explanation for Avila’s sentence—it did not state why
it imposed two sentences, why it ran them consecutively, or why it doubled the length of
Avila’s original sentence. This absence is particularly concerning because none of the
Smith factors—potential justifications for a longer sentence—apply here. It was not the
“prosecutor recommending a lower sentence” that resulted in the original 144-month term.
Vang, 847 N.W.2d at 265. That sentence was driven by law: 144 months is the presumptive
guidelines sentence for a person like Avila with zero criminal history. Certainly more facts
were elicited at the trial on remand than at the initial plea hearing, but the core facts about
the crime were always known to the court. Even at the time of the first sentencing, the
court was aware that Avila committed sexual penetration against his fifteen-year-old
stepdaughter, resulting in her pregnancy. The evidence at trial merely corresponded to the
elements of the charged offenses. And Avila’s conduct during trial did not give the court
any reason to penalize him more harshly. In fact, Avila’s status as a pro se litigant suggests
an improper basis for the increased sentence—that the court imposed a doubly-long
sentence as punishment for Avila exercising his right to appeal and then his right to self16
H84

representation, which led to a long and arduous case in district court. The increased
sentence on remand was vindictive and should be reduced by this Court.
In addition to punishing Avila for a successful appeal, the 288-month (24 year)
sentence is also excessive. Minn. Stat. § 244.11, subd. 2(b). The potential for consecutive
sentences to unfairly exaggerate a defendant’s criminality is of particular concern in intrafamilial sexual abuse cases. Because such cases typically involve multiple incidents
against a single victim, permissive consecutive sentencing can result in “enormous
disparity based on varying charging practices of prosecutors and discretionary judicial
decisions.” State v. Notch, 446 N.W.2d 383, 385-86 (Minn. 1989) (quoting Minnesota
Sentencing Guidelines, ILF.06 Comment (1986)). For this reason, prior versions of the
sentencing guidelines permitted consecutive sentencing in such cases only if the defendant
was being sentenced for multiple offenses against different victims. Id. This is not a case
involving multiple sentences for multiple victims.
Moreover, the availability of two sentences in this case is fundamentally a product
of the charging decision to create two counts. The two counts covered one contiguous date
range in the year 2001. The State could have charged one count involving multiple acts
committed from January to July 2001 instead of charging two counts that split that range
in half. This would have resulted in only one 144-month sentence for the same conduct.
Obtaining two sentences may not have been the purpose of the manner of charging, but it
is surely its effect. Cf. State v. Folley, 438 N.W.2d 372, 374 (Minn. 1989) (noting that
allowing length of defendant’s sentence to turn on matters subject to manipulation by
prosecutors would defeat policy underlying guidelines).
17
H85

This Court has the authority to modify a sentence even if it is within the presumptive
guidelines range. State v. Kraft, 326 N.W.2d 840, 842 (Minn. 1982). Avila’s consecutive
144-month sentences violate due process by punishing him for appealing. The total
sentence is also excessive. This Court should reverse and remand for imposition of a
reduced sentence, no longer than the original 144-month term. Cf State v. Hennum, 441
N.W.2d 793, 801 (Minn. 1989) (reversing imposition of presumptive sentence).

18
H86

CONCLUSION
This Court should reverse Avila’s convictions because the statute of limitations was
triggered by the citizen report in 2003 and the complaint was filed after the limitations
period expired. In the alternative, this Court should reverse Avila’s 288 month sentence
because the district court erred by doubling Avila’s sentence on remand.

Dated: February 19, 2019

Respectfully Submitted,

JENNA YAUCH-ERICKSON
Assistant Appellate Public Defender
License No. 0392035
540 Fairview Avenue North
Suite 300
St. Paul, MN 55104
(651)201-6700
ATTORNEY FOR APPELLANT

19
H87

State Of Minnesota
In Court of Appeals

State of Minnesota
Respondent,
District Court File No: 42-CR-14-600
Appellant Court File No: A16-0516

V.

Adolfo Avila,
Appellant,

APPELLANTS BRIEF

H28

TABLE OF CONTENTS

i

Table of Authorities

2

Question Presented

3

Rule of Evidence Involved

3

Statement of the case
Summary of the argument

3/4
5/6/7/8/9/10/11

Argument

12

Conclusion

12

i

1 out of 12 pages for Avila's Appeal Brief

H29

Authorities
Merriam-Webster (Dictionary of Law) Judicial System
Court and law Enforcement Personnel:
The officers of the court are persons assembled at the court to administer Justice. They include
the judge, who is the principal officer of the court, the lawyers, the clerk of courts, the sheriff,
the Marshall, the bailiff, and possibly a constable or a court officer.
The chief local law enforcement officer maybe called the prosecuting attorney, state attorney.
or district attorney.

Black's Law Dictionary (Seventh Edition) West Group Garner
Affidavit: a voluntary declaration of facts written down and sworn to by the declarant before
an officer authorized to administer oaths.
Case Law
"Additionally, if a plea is contemplated, counsel must ensure that his client's plea will be
voluntary. If a defense is possible under the facts of the case, the client will necessarily have to
acknowledge the defense, acknowledge that counsel has fully advised him as to the defense,
and then affirmatively waive it. The omission of any of these three essentials can raise the
question of whether the plea was voluntary, Minn. R. Crim. P. 15.01, Subd. 1." Minn. Vs. Fabrizio
Montermini. Appellant. Court of Appeals of Minnesota 2009 Minn. App. Unpub. Lexis 532 A06-1640 May 19,
2009, filed. "Furthermore, in drawing that conclusion, the district court overlooked Montermini's
right to enter a voluntary plea, one characterized by an understanding of the nature of anv
possible defense and an express waiver of such a defense'MD
In Toussie V. United States, the U.S. Supreme Court noted that, in general, a statute of
limitations should be liberally interpreted in favor of closure for an accused.
See Adlestein, Alan L. Rev. 199,262(1995); see also note, Barrier to Prosecution, supra note 5,
at632 (observing that," prosecution should be based on evidence that is reasonably fresh and
therefore more trustworthy than evidence with a probative value which has grown weaker as
man's ability to remember has become impaired");21 Am. Jur 2d $ 291 ("statute of limitations
on criminal prosecutions are designed to protect individuals from having to defend
themselves against charges when the basic facts may become obscured by the passage of
time. Such a time limit may also have the salutary effect of encouraging law enforcement
officials promptly to investigate suspected criminal activity...")
2 out of 12 pages for Avila's Appeal Brief

H30

Question Presented
Did the Judge correctly applied the law or made errors of law that induced a plea?
RULE OF EVIDENCE INVOLVED
Current Statute of Limitations M.S.A. 628.26 (e) Indictments or complaints for violation of section 609.342 to
609.345 if the victim was under the age of 18 years at the time of the offense was committed, shall be found or
made and filed in the proper court with in the latter of the nine years after the commission of the offense
Or three years after the offense was reported to Law Enforcement Authorities.
Minnesota Statute 626.556 Sub.3 (b) Any person may voluntarily report to the local welfare agency, agency
responsible for assessing or investigating the report, police department, or the county sheriff if the person knows,
has reason to believe, or suspects a child is being or has been neglected or subjected to physical or sexual abuse.
The police department or the county sheriff, upon receiving a report, shall immediately notify the local welfare
agency responsible for assessing or investigating the report, orally and in writing. The local welfare agency or
agency responsible for assessing or investigating the report, upon receiving a report, shall immediately notify the
local police department or county sheriff orally and in writing.
Minnesota Statute 626.556 Sub.7 (b) Any report shall be of sufficient content to identify the child, any person
believed to be responsible for the abuse or neglect of the child if the person is known, the nature of the abuse or
neglect and the name and the address of the reporter. The local welfare agency or agency responsible for
assessing or investigating the report shall accept a report made under subdivision 3 notwithstanding refusal by a
reporter to provide the reporter's name or address as long as the report is otherwise sufficient under this
paragraph. Written reports received by the police department or county sheriff shall be forwarded immediately to
the local welfare agency or the agency responsible for assessing or investigating the report. The police department
or the county sheriff may keep copies of reports received by them. Copies of written reports received by a local
welfare department of the agency responsible for assessing or investigating the report shall be forwarded
immediately to the local police department or the county sheriff.

STATEMENT OF THE CASE
Criminal case number: 42-CR-14-600 out of Lyon County District Court is presented for appeal.
The charges are dated Count I (Jan. to June 2001) and Count II (May, June, July 2001). The
complaint was filed on July 3, 2014 which is 13 years later. The July 3, 2014 complaint is been
based on the three year report to Law Enforcement Authorities clause not the Nine Year Latter.
The report being used for this prosecution is Lyon County Sheriff's Office Report dated July 20,
2011. On April 27, 2006 the complainant applied for assistance at the Human Services in
Marshall, Minnesota which in turn she was referred to Child Support Collections Enforcement
Services.
3 out of 12 pages for Avila's Appeg.l Brief

H31

The complainant reported to Child Support Officer Mary J. Stanton that the defendant is the
biological father of the child. Which a legal action was commenced to establish parentage
against the defendant in the District Court (Fifth Judicial District) located in Marshall Minnesota
back in 2007 which law enforcement involved:
Honorable Jan Creg. Nelson oversaw the proceedings and the state was represented by County
Attorney Nicole A. Springstead (registration no: 0326550).
Court Summons package (which included complaint, supporting affidavit, paternity testimony)
was prepared and filed by Karen Bierman (Court Administrator) and Tammy Horner (Deputy
Court Administrator).
The COMPLAINT of May 8. 2007 initiated by the County Attorney Nicole A. Springstead
with the testimony of Maria Herrera and Child Support Officer Mary J. Stanton in court and
thru affidavit(which is done before an officer authorized to administer oath).
ALLEGES:
1. This is an action to establish parentage and basic support.
2. The Plaintiffs are the county of Lvon and Maria Herrera. The Defendant is Adolfo Avila.
3.

Maria Herrera is the mother of the following child (ren) whose paternity is sought to be
established in this action:
*Mavkela M. Herrera was born on 03/06/2002 in the County of Lvon. State of
Minnesota.

4. Maria Herrera has assigned rights to child support to the state
5. The act(s) of sexual intercourse, which may have resulted in conception, occurred
within the state of Minnesota. At the time the act(s) occurred. Maria Herrera was a
resident of the state of Minnesota.
6. Maria Herrera did not have sexual intercourse with any other man six weeks before or
six weeks after the alleged date of conception(s).
7. Maria Herrera has never been married to Adolfo Avila.
8. Adolfo Avila is the father of the child (ren).
On the September 20, 2007 paternity case hearing the complainant testified under oath in
court about her and the defendant engaging in sexual intercourse which caused her to
become pregnant and also the ages of complainant, defendant, and child were disclosed by
the complainant in the hearing.
4 out of 12 pages for Avila's Appeal Brief

H32

Summary of Argument
This brief will point out prejudicial errors(which are in the record) that were made that
prevented the defendant from perfecting the statute of limitations claim and improperly
pressured defendant to accept an involuntary guilty plea so to bring finality to this criminal
case.
Legal Error 1
On June 30, 2015 at the Omnibus hearing the issue of the statute of limitations was raised
by public defender AJ. Kasprick thru the Defendant's Memorandum of Law and in the hearing
which was supported by intrinsic evidence (the child support file) that proved a legal proceeding
(the 2007 paternity case) because of the complainant's report of the pregnancy to law enforcement
authorities had taken place in the Fifth Judicial District Court. (6/30 T. at 13)
The Findings of facts, Conclusion of Law, in Lyon County Court file FA-07-566 clearly prove the
alleged sexual misconduct and the complainant's, the defendant's, and child's age difference
were reported to law enforcement Authorities which in this case a reciprocal report was sent to
the Lyon County Sheriff's Office for summons/investigation purposes. (9/8T. at 9) Referencing
Minnesota statute 626.556 Subd.7 (b) any report shall be of sufficient content to identify the child,
person responsible for the abuse, the nature of the abuse. In this case it would be the
complainant, the defendant, the conception which going by the age differences the
complainant was 15 years old. The September 20, 2007 hearing constituted official involvement
state v. Daniel ski (348 N.w.2d 356} which technically triggered the three years after the offense was
reported to law enforcement authority statute of limitations clause. The complaint for this
criminal case was filed on July 3, 2014 which is four years after the 3 year time period to report
to law enforcement had expired. On the July 8, 2015 written order the Judge's decision was
not properly based on the evidence introduced in the case. The Judge made an error(incorrect!y
applied the law) by not dismissing this criminal case once evidence of the 2007 paternity case
was introduced proving the alleged sexual misconduct had been reported to law enforcement
authorities and legal proceedings had taken place based on this reports(affidavits). Thus
proving the statute of limitations had expired on this criminal case, state v. French (392 N.w.2d 596}
Under the facts of the case the statute of limitations defense was possible which public
defender and defendant had acknowledged thus bringing up the issue at the omnibus hearing.
This legal error would put the defendant in a predicament where due to the pressures from the
court and prosecuting attorney to bring finality to this case defendant would have to
involuntarily accept a plea deal. (9/8 T. at 2-3) The court made a prejudicial error by failing to
inquire about the statute of limitations defense at the guilty plea hearing. (9/22 t. at 2-34)
5 out of 12 pages for Avila's Appeal Brief

H33

Thus defendant never affirmatively waived the statute of limitations defense. The court
overlooked the defendant's right to enter a voluntary plea, defendant never expressed waiver
of statute of limitations defense. Once a defendant acknowledges a defense he must
affirmatively wave it at the hearing or the plea is considered involuntary thus invalid. Minn. Vs.
Fabrizio Montermini. Appellant. Court of Appeals of Minnesota 2009 Minn. App. Unpub. Lexis 532 A06-1640
May 19,2009, filed. It is manifest unjust for the court to accept an involuntary plea of guilty to a
crime. The "involuntariness of a guilty plea *** constitutes such a manifest injustice as to entitle
defendant to withdraw his plea." State v. Danh, 516 N.W.2d 539,544 (Minn. 1994) (quoting Hirtv. state,
298 Minn. 553,558,214 N.w.2d 778,782 (1974)). This prejudiced the defendant's case for defendant
never wanted to waive the statute of limitations defense so the court based their accepting of a
plea on an assumption. Defendant should be allowed to withdraw he's plea to correct this
manifest Injustice for the court failed to adequately inquire into the voluntariness of the plea.
Boykin v. Alabama 395 US 238,1969
Legal Error 2
At the June 30, 2015 omnibus hearing Investigator Rolling misrepresented the facts of when
the alleged sexual misconduct was reported to him thus making the courts finding of facts
erroneous. During direct examination Rick Maes(Prosecutor) asked the question" Was that the
first time you were notified of any alleged misconduct involving Mr. Avila and the alleged victim?" and
Investigator Rolling response was" that was the first time it was reported to me/'(6/30 T. at 3-4)
Yet in the report used for prosecution Investigator Rolling makes this statement. "On July25,

\

2011,1 conducted an interview with Maria Herrera at the Lyon county Sherriffs Office. I began speaking with
Maria and introduced myself. / explained that prior to working at the Lyon County sheriffs Office, I had been a
police officer with the city of Tracy. I explained that while working there, I had heard a rumor that Adolfo Avila
had gotten his daughters pregnant, but I was never able to substantiate that. I explained that I was somewhat
familiar with the situation, and if she could tell me what had all occurred
(This statement is in report used for prosecution No: 11-11429 dated July 26,2011 on pg.2 second paragraph.)
When Investigator Rolling received the information of the suspected criminal activity
constituted official involvement which the act {the pregnancy) was reported to him as a Tracy
Police officer since at least 2003 State v. Daniel ski {348 N.w.2d 356} thus the offense was officially
discovered since at least 2003. As to the reason the suspected criminal activity was not brought
to the prosecuting authority on time is a question for Investigator Rolling. In state v. Daniel ski {348
N.w.2d 356} the officers investigated the information they received on July 29,1983 and brought
charges against the defendants on august 26,1983. In this case Investigator Rolling received the
information since at least 2003 but charges were filed until July 3, 2014 which is 11 years later.
6 out of 12 pages for Avila's Appeal Brief

H34

Referencing Minnesota statute 626.556 Subd.3 (b) Any person may voluntarily report the
information to the police/sheriff if there is reason to believe or suspect a child is being abused
or subjected to physical or sexual abuse which in turn the police officer sends a reciprocal
report to the Human services. The information according to Minnesota statute 626.556 Subd.7 (b)
constitutes a report that notified him. Making him aware of the allegation which prompt him to
investigate "but I was never able to substantiate that. I explained that I was somewhat
familiar with the situation," Referencing Minnesota statute 626.556 Subd.7 (b) Even without the
reporter's name and address any report shall be of sufficient content to identify the child, any
person responsible for the abuse, and the nature of the abuse which in this case would be the
complainant, Defendant, and the pregnancy.
In all the information of the alleged sexual misconduct was brought to a law enforcement
officer which it is what the statute requires so to trigger the statute of limitations.
State v. Daniel ski {348 N.W.2d 356}
The Minnesota Appellate Courts have stated someone actually brings the information to the
proper law enforcement authorities, before the statute begins to run (Souk up, 746 N.w. 2d at 922
Citing Daniel ski, 348 N.w. 2d at 357.) Defendant read Investigator Rolling's statement to the court in
the December 4, 2015 hearing proving the alleged sexual misconduct was reported to a law
enforcement officer since at least 2003. (12/4 T. at 5-8). Defendant filed a motion to do a
deposition on Investigator Rolling to confirm the 2003 report and a motion to withdraw he's
plea which were done before sentencing. A defendant has a fundamental right to decide to
plead guilty which he must do so knowingly, intelligently, and voluntarily. Butala v. state, 664
N.W.2d 333 (Minn. 2003) A valid guilty plea "must be accurate, voluntary, intelligent (i.e., knowingly and
understandingly made).
As a doctrinal matter, the Supreme Court's guilty plea cases suggest that government
misrepresentation does in fact negate the voluntary and intelligent nature of a plea.
For example, in Brady v. United States, 397 u.s. 742 (1970), the Supreme Court defined a
voluntary plea in part by what it was not, explicitly excluding from its definition those pleas
induced bv threats, misrepresentation, and improper promises, i.d. at 755. See also id. At 757
(recognizing "misrepresentation or other impermissible conduct by state agents" as a basis for
invalidating a plea). A plea is not voluntary or intelligently made if premised on the
misrepresentation of the facts. Either a voluntary and intelligent plea require informed decision
making which in this case the lead investigator to this criminal case misrepresented the facts of
when he actually got the first report. Changing the starting point of the 3 years after the
offense was reported to law enforcement authority period from 2003 to 2011. Even the 2011
report date was troubling which public defender AJ raised the issue at the omnibus hearing.
(6/30 T. at 13-14)

7 out of 12 pages for Avila's Appeal Brief

H35

I

This misrepresentation of the facts made the parties mutually mistaken in the belief that
the statute of limitations had not expired on this criminal case which the statute of limitations
had expired thus barring prosecution. State v. French {392 N.W.2d 596} Toussie v. United States {397 U.S.112}
The judge did not dismiss the case and the prosecutor continued prosecution because they
based their decisions on this misrepresentation of the facts. Public defender unintelligently
advice defendant to accept the guilty plea thus defendant made an unintelligent and
involuntary decision to plead guilty based on this misrepresentation of the facts. Defendant did
not voluntarily and knowingly enter the plea. Butala v. state, 664 N.w.2d 333 (Minn. 2003) A valid guilty
plea "must be accurate, voluntary, intelligent (i.e., knowingly and understandingly made). It is manifest
unjust for the court to accept an involuntary plea of guilty to a crime. The "involuntariness of a
guilty plea

constitutes such a manifest injustice as to entitle defendant to withdraw his

plea." State v. Danh, 516 N.W.2d 539, 544 (Minn. 1994)
The Fair and Just Standard" requires district courts to give due consideration to two factors:
(1) The reasons a defendant advances to support withdrawal and (2) prejudice granting the
motion would cause the [sjtate given reliance on the plea." Raleigh, 778 N.W.2d at 97 (quoting
Kim, 434 N.W.2d at 266). A defendant bears the burden of advancing fair-and-just reasons to
support withdrawal State v. Lopez, 794 N.W.2d 379, 382 (Minn. App. 2011). In addition, the
fair-and-just reasons must be supported by the record. Raleigh,778 N.W.2d at 97. (1) In this
case the defendant's reason for the request of withdrawal of the plea was the statute of
limitations applies which was proven by Investigators Rolling own statement admitting an
earlier report. Contradicting he's own testimony and making the courts findings erroneous.
Which defendant got from Investigator Rolling own report used for prosecution and read in
open court and it is on the record. {12/4T. at 5-8) (2) As to the prejudice it would cause the state
would be the delay caused by law enforcement not by the defendant. The suspected criminal
activity was officially discovered since at least 2003. state v. Daniel ski {348 N.w.2d 356}
On the December 29, 2015 hearing the judge denied the motion to do a deposition on
Investigator Rolling to confirm the 2003 report and the motion to withdraw the plea and
sentenced defendant. The court abused its discretion by not allowing defendant to withdraw
the plea so defendant could perfect the statute of limitations claim even thou intrinsic evidence
was read in court proving the courts findings of facts were erroneous and the statute of
limitations had expired on this criminal case. The court made a prejudicial error by accepting an
unintelligent and involuntary plea from the defendant. This prejudiced the defendant for the
statute of limitations would have been officially perfected and this criminal case dismissed. The
court overlooked the defendant's fundamental right to enter an Intelligent and voluntary plea.
Defendant should be allowed to withdraw he's plea to correct this Manifest Injustice.
8 out of 12 pages for Avila's Appeal Brief

H36

Legal Error 3
When a civil or criminal matter is commenced in court an affidavit is done on the witnesses
by an officer authorized to administer oaths which for the child support file (2007 paternity case)
an affidavit was done on Mary J. Stanton(child support officer) and on Maria Herrera(complainant).
The Findings of Facts, conclusion of law, in Lyon County Court file FA-07-566 (iv-D Case no:
l
l

001438290802) clearly show a supporting affidavit was done on Mary J. Stanton and a paternity
affidavit was done on Maria Herrera. The affidavits are listed in several documents thru out the
child support file: In the summons; in the complaint; in the admission of service on Maria
Herrera; in the admission of service on the defendant and in other documents in the child
support file. (9/22 T. at 2-3) (reference exhibit 1)
On September 8, 2015 a Motion to Compel Discovery was brought for the Lyon County
Court file FA-07-556 (iV-D Case no: 001438290802) filed at the courthouse in reference to Mary J.
Stanton's Affidavit and the complainant's sworn paternity affidavit but the Judge did not grant
access to the actual courthouse file even thou that was the point of the motion. (9/8 T. at 6)
Instead the in camera review was done but on the Human Services file. Mary J. Stanton's
Affidavit and complainant's paternity affidavit sworn to an officer would be in the court file not
the human services file. The in camera review was done on the wrong file.
On the September 22, 2015 hearing the Judge made a prejudicial error by providing a copy
of the summons package and complaint from the child support file (iv-D Case no: 001438290802)
which is the parentage case that took place in 2007 but copies of Mary J. Stanton's affidavit and
the complainant's paternity sworn affidavit were not provided. (9/22 T. at 2-5)(i2/iT. at 11-13)
(12/29 T. at 9)
The withholding of Mary J. Stanton's affidavit and the paternity testimony affidavit willingly
or inadvertently caused an injustice against the defendant for with this documents the
defendant could perfect the statute of limitations claim without a doubt.
In 2007 on several occasions Lyon County Sheriff's Officers stopped by the defendant's farm
to try to serve the summons package on defendant until it was finally served on him on May 20,
2007. (9/8 T. at 9) In the paternity testimony affidavit the complainant points out the defendant
is the father of the child; the age difference; and clearly points out the significant relationship.
Referencing Minnesota statute 626.556 Subd.7 (b) when there is a report of abuse to Human Services
a reciprocal report is sent to the Sheriff's Department and vice versa which in this case a
reciprocal report was sent for summons/investigation purposes to the Lyon County Sheriff's
Office. (9/8 T. at 9)
9 out of 12 pages for Avila's Appeal Brief

H37

The record retention time has not expired on this child support case filed at the Lyon
County Courthouse. All the documents for this child support case do show up on the computer
as filed so they should be in the physical file which defendant confirmed on the phone with
Karen Bierman that the affidavits were there so defendant could get copies. (10/21 t. at 4)
On September 22, 2015 once defendant realized the affidavits were being withheld which
trapped the defendant constituted an improper pressure which induced the defendant to
accept the guilty plea. (9/22T.at 2-34) This affidavits that were confirmed to be in the child
support file had disappeared. (9/22T. at 2-5) (12/11. at 11-13) Defendant had no choice but to
summit and accept the guilty plea. The pressure had been felt for months by the defendant but
he still would not accept the guilty plea. (9/8 T. at 2-3)
Even during the plea hearing defendant stopped responding for defendant did not want to
continue the process of accepting the guilty plea but they persisted and kept going with the
plea hearing and kept asking questions overriding the defendant's will. (9/22 t. at 19-22) A guilty
plea must appear on the record to have been voluntarily and intelligently made. If not, the plea
must be vacated, state v. Casarez, 534,536,203 N.w.2d 406,408 (1973) Defendants attitude was one
of a very emotional person under pressure for defendant realized the perfecting of the statute
of limitations claim was blocked and he was now facing serious prison time which it would be
double punishment if he did not summit and comply to the guilty plea. (9/22t. at 19-22)
Defendant brought up the issue of the missing report several times during the plea hearing.
(9/22 T. at 16) (9/22 T. at 32)
A defendant has a fundamental right to decide to plead guilty which he must do so
knowingly, intelligently, and voluntarily. Butala v. State, 664 N.W.2d 333 (Minn. 2003) A valid guilty plea
"must be accurate, voluntary, intelligent (i.e., knowingly and understanding^ made). The voluntariness
requirement ensures that the guilty plea is not in response to improper pressures or
inducements. How can this guilty plea been accepted as voluntary when defendant was not
only improperly pressured into accepting the involuntary guilty plea but trapped to accept it.
The court made a prejudicial error by accepting an involuntary plea which was induced by their
error of withholding material evidence favorable to the defense of the statute of limitations
claim. The process by which the trial judge accepted the plea violated the defendant's
fundamental right to enter a voluntary plea. Boykin v. Alabama 395 US 238,1969
On the December 1, 2015 hearing the Judge was aware the report (Mary J. Stanton's
Affidavit) was not disclosed to the defendant but in the December 29, 2015 hearing the Judge
makes a statement that the report had been disclosed to the defendant which it was not.
(12/1T. at ll-13)(12/29 T. at 10,11)
10 out of 12 pages for Avila's Appeal Brief

H38

Defendant read this statement in the sentencing hearing on December 29, 2015 to the
court. 'Today I will be accepting a plea bargain that I do not agree or want to accept. But I feel
the level of corruption here in Lyon County Minnesota is at a high level in our law enforcement
and our court system. My biggest fear is the safety of my family. Also I am in fear of what they
can do to me. Everything I have tried to do here has been blocked and some of the things they
did they did not even hide from me. The statute of limitations has expired in my case. I should
not have been arrested much less charged with two counts. For now it is best they think they
won and I am done so the drama stops here. I am doing damage control where my punishment
is less for it is obvious they will stop at nothing to do and get what they want. My first priority
or main concern is my families safety and well being." (12/29 t. at 14)
It is manifest unjust for the court to accept an involuntary plea of guilty to a crime. The
"involuntariness of a guilty plea *** constitutes such a manifest injustice as to entitle defendant
to withdraw his plea." State v. Danh, 516 N.W.2d 539, 544 (Minn. 1994) (quoting Hirt v. State, 298 Minn.
553,558,214 N.w.2d 778,782 (1974)). As a remedy to correct this prejudicial error defendant should
be allowed to withdraw he's guilty plea to correct this Manifest Injustice.
legal Error 4
Prosecutor made a prejudicial error by making a misleading statement to the court in reference
to the statute of limitations. Prosecutor said in court a report must come from the alleged
victim herself to trigger the statute of limitations and that is not correct. This erroneous view of
the law prejudiced the defendant's case for the prosecutor litigated this on several occasions to
the court. (6/30 T. at u)(9/29 T. at 7) The court did not correct or disagree with the prosecutor
about this erroneous view of the law. The court ruled against the defendant about the statute
of limitations.

11 out of 12 pages for Avila's Appeal Brief

H39

ARGUMENT
THE JUDGE RULED AGAINST CREDIBLE EVIDENCE PROVING THE STATUTE OF LIMITATIONS(THE CHILD
SUPPORT FILE); DOES NOT APPROVE THE SEPTEMBER 8, 2015 MOTION TO COMPEL DISCOVERY FOR
COURTFILE FA-07-566; DOES NOT DISCLOSE MARY STANTON'S AFFIDAVIT AND PATERNITY AFFIDAVIT
ON THE SEPTEMBER 22, 2015 HEARING; MAKES A MISLEADING STATEMENT THAT MARY STANTON'S
AFFIDAVIT WAS DISCLOSED WHICH IT WAS NOT; DOES NOT APPROVE MOTION FOR DEPOSITION ON
INVESTIGATOR ROLLING FOR THE 2003 REPORT; ACCEPTS A GUILTY PLEA WHERE THE DEFENDANT
STOPS RESPONDING BUT WAS PRESSURED THRU THE PLEA HEARING TO CONTINUE THE PROCESS TO
ACCEPT THE GUILTY PLEA; DOES NOT DENY COUNSELS ERROR BUT DENIES POST CONVICTION
PETITION RELIEF.THIS PROCEEDINGS TAKEN AS A WHOLE ENSUED PREJUDICED AGAINST THE
DEFENDANT WHICH DENIED SUBSTANTIAL JUSTICE FOR THE DEFENDANT. A PROPER
ADMINISTRATION OF JUSTICE WOULD HAVE ATLEAST APPROVED THE SEPTEMBER 8, 2015 MOTION
TO COMPEL DISCOVERY ON THE ACTUAL CHILD SUPPORT COURTFILE AND APPROVED THE
DEPOSITION ON INVESTIGATOR ROLLING'S 2003 REPORT TO CONFIRM OR DISCREDIT MATERIAL
EVIDENCE FAVORABLE TO THE DEFENSE OF THE STATUTE OF LIMITATIONS CLAIM.
Conclusion
The intrinsic evidence is credible to prove the alleged sexual misconduct was reported to law
enforcement authorities in 2003 and 2007. In conclusion, the statute of limitations was proven
twice on the record (6/30T. at 13) (9/4 T. at 5-8) thus barring prosecution but the Judge made legal
errors of law which allowed the prosecution of this criminal case. The same County Attorney
Office and the same court administration in Lyon County brought and prosecuted the first
complaint filed on May8,2007 and second complaint filed July 3,2014. 7 years difference from
one legal action to the next which this legal actions can only be brought or made by law
enforcement Authorities. A guilty plea is only constitutionally valid if it "represents a voluntary
and intelligent choice among the alternative course of action open to the defendant" Hill, 474
u.s. at 56. In this case the withholding of the affidavits willingly or inadvertently changed the
alternative course of action open to the defendant The guilty plea was induced by the
withholding of the affidavits. Defendant did not voluntary enter the plea. Defendant was
denied that fundamental right, "a trial judge should not accept a guilty plea unless he has
determined that such plea is voluntarily and knowingly entered by the defendant," Boykin v.
Alabama {395 US 238,1969} The trial judge failed to do he's duty to insure the guilty plea he
accepted would be voluntary. When the reason for the rule fails to exist so should the rule
itself. Defendant respectfully requests that this error in law in the name of Justice be corrected
and this conviction which represents a Manifest Injustice be vacated. Thank you.
Sig.

i?cout of 12 pages for Avila's Appeal Brief

H40

This opinion will be unpublished and
may not be cited except as provided by
Minn. Stat. § 480A.08, subd. 3 (2016).
STATE OF MINNESOTA
IN COURT OF APPEALS
A16-0516
State of Minnesota,
Respondent,
vs.
Adolfo Gutirrez Avila,
Appellant.
Filed May 22,2017
Reversed and remanded
Toussaint, Judge*
Lyon County District Court
File No. 42-CR-14-600
Lori Swanson, Attorney General, St Paul, Minnesota; and
Rick Maes, Lyon County Attorney, Abby Wikelius, Assistant County Attorney, Marshall,
Minnesota (for respondent)
Cathryn Middlebrook, Chief Appellate Public Defender, Jenna Yauch-Erickson, Assistant
Public Defender, St. Paul, Minnesota (for appellant)
Considered and decided by Halbrooks, Presiding Judge; Schellhas, Judge; and
Toussaint, Judge.

* Retired judge of the Minnesota Court of Appeals, serving by appointment pursuant to
Minn. Const, art. VI, § 10.

H58

UNPUBLISHED OPINION
TOUSSAINT, Judge
On appeal from his conviction of first-degree criminal sexual conduct, and from the
order denying his postconviction petition following a stay and remand, appellant Adolfo
Gutirrez Avila argues that (1) his guilty plea was unintelligent because he did not
understand that it would waive his right to appeal the statute-of-limitations defense and
(2) his trial counsel was ineffective because he failed to advise appellant that his plea would
waive all non-jurisdictional issues, including the statute-of-limitations defense. Appellant
also filed a pro se supplemental brief in which he made several arguments pertaining to the
statute-of-limitations issue. Because appellant’s guilty plea was unintelligent, we reverse
and remand to allow appellant to withdraw his plea.
DECISION
This court reviews a summary denial of postconviction relief for an abuse of
discretion. State v. Hokanson, 821 N.W.2d 340,357 (Minn. 2012). In doing so, we review
the postconviction court’s legal determinations de novo and its factual findings for clear
error. Bonga v. State, 797 N.W.2d 712,718 (Minn. 2011).
Under the rules of criminal procedure, there are two standards forjudging a motion
to withdraw a guilty plea; one applies only to a motion brought before sentencing, and the
other applies to a motion brought at any time. The district court, in its discretion, “may
allow the defendant to withdraw a plea at any time before sentence if it is fair and. just to
do so.” Minn. R. Crim. P. 15.05, subd. 2 (emphasis added). “At any time the court must
allow a defendant to withdraw a guilty plea upon a timely motion and proof to the
2
H59

satisfaction ofthe court that withdrawal is necessary to correct a manifest injustice.” Minn.
R. Crim. P. 15.05, subd. 1 (emphasis added). The fair-and-just standard is discretionary
and less demanding than the manifest-injustice standard. State v. Raleigh, 778 N.W.2d 90,
97 (Minn. 2010); State v. Lopez, 794 N.W.2d 379,382 (Minn. App. 2011).
In denying appellant’s motion to withdraw his guilty plea, the district court properly
applied the fair-and-just standard under rule 15.05, subdivision 2, and then proceeded to
sentencing. Appellant does not challenge the district court’s reasoning in denying his
motion under Minn. R. Crim. P. 15.05, subd. 2. Instead, he argues that the district court
was compelled to grant his motion to withdraw his guilty plea in order to correct a manifest
injustice under rule 15.05, subdivision 1.
“[A] defendant who can show manifest injustice is entitled as a matter of right to
withdraw his plea of guilty.” Hirt v. State, 298 Minn. 553, 557, 214 N.W.2d 778, 782
(1974). “A manifest injustice exists if a guilty plea is not valid.” Raleigh, 778 N.W.2d at
94. A guilty plea is valid if it is accurate, voluntary, and intelligent. Id. The validity of a
guilty plea is a question of law that is reviewed de novo. Nelson v. State, 880 N.W.2d 852,
858 (Minn. 2016).
The purpose of the requirement that a guilty plea be intelligent “is to insure that the
defendant understands the charges, understands the rights he is waiving by pleading guilty,
and understands the consequences of his plea.” Taylor v. State, 887 N.W.2d 821, 823
(Minn. 2016) (quotation omitted). If the defendant is represented, his attorney plays an
important role in ensuring that any plea is intelligent by explaining the charges, the rights
to be waived, and the consequences of the plea. Id. One of the consequences of pleading
3
H60

guilty is the waiver of all non-jurisdictional defects. See State v. Ford, 397 N.W.2d 875,
878 (Minn. 1986) (“A guilty plea by a counseled defendant has traditionally operated ...
as a waiver of all non-jurisdictional defects arising prior to the entry of the plea.”)- A
statute-of-limitations defense is a non-jurisdictional issue that is waived by a guilty plea.
State v. Johnson, 422 N.W.2d 14, 18 (Minn. App. 1988), review denied (Minn. May 16,
1988).
Appellant argues that his guilty plea was unintelligent because he did not understand
that his plea would waive his right to appeal his statute-of-limitations defense. We agree.
In State v. Tupa, the defendant was charged with being an accessory after the fact to a
felony. 194 Minri. 488,488, 260 N.W. 875, 876 (1935). The defendant demurred on the
ground that the statute of limitations barred prosecution of the offense. Id. at 489, 260
N.W. at 876. After the district court overruled the demurrer, the defendant pleaded guilty
to the charged offense. Id On appeal from the denial of the defendant’s motion to set
aside the judgment, our supreme court held that the defendant, by his guilty plea, did not
waive “any defects in the information and the defense of the statute of limitations” because
there was no indication that he “intended to waive or relinquish a ‘known right.’” Id. at
495-97,260 N.W. at 878-79 (noting that waiver “is a voluntary relinquishment of a known
right,” that is “largely a matter of intention,” and “must be based on a full knowledge of
the facts” (quotation omitted)).
We acknowledge that the supreme court in Tupa did not hold that the statute-oflimitations defense may never be waived, and that our supreme court has since concluded
that a “statute-of-limitations defense is a claim-processing rule, which is subject to waiver.”
4
H61

Reed v. State, 793 N.W.2d 725, 732 (Minn. 2010) (holding that a statute-of-limitations
defense is not a jurisdictional rule that deprives a district court of its power to adjudicate a
case). And as stated above, a valid guilty plea generally waives all non-jurisdictional
defects. See Ford, 397 N.W.2d at 878. But as in Tupa, there is no indication that appellant
intended to relinquish his right to argue his statute-of-limitations defense on appeal. The
record reflects that after appellant was charged with first-degree criminal sexual conduct,
he moved to dismiss the charges, asserting a statute-of-limitations defense. Although the
district court denied the motion, appellant continued to litigate the issue, requesting
reconsideration of the district court’s decision, and later moving to compel discovery in
order to obtain documents pertaining to the statute-of-limitations issue. In fact, at the
sentencing hearing, when the prosecutor argued that the district court should deny
appellant’s request to withdraw his guilty plea, the prosecutor acknowledged that appellant
was “hung up” on the statute-of-limitations issue. Yet despite appellant’s continued
intention of pursuing the statute-of-limitations issue, it is undisputed that appellant was not
“informed about the fact that he would be waiving his statute-of-limitations defense on
appeal” by pleading guilty.
Because appellant did not understand that by pleading guilty he was waiving his
right to appeal his statute-of-limitations defense, a right he clearly had no intention of
relinquishing, we cannot conclude that appellant’s guilty plea was intelligent. See Taylor,
l

To the contrary, we note that in opposing appellant’s request to withdraw his guilty plea,
the prosecutor argued that because the statute-of-limitations issue was “already” decided
by the district court, appellant’s “proper course of action is either upon appeal... or in
some form of a postconviction proceeding.”
5

H62

«
f

«
I

887 N.W.2d at 823. Accordingly, appellant’s guilty plea was invalid, and the district court
erred by denying appellant’s request to withdraw his guilty plea. And because appellant
must be entitled to withdraw his guilty plea, we need not address appellant’s alternative
inefifective-assistance-of-counsel argument, or the claims raised in appellant’s pro se

i

supplemental brief.
Reversed and remanded.
I

I

I

6
H63

This opinion will be unpublished and
may not be cited except as provided by
Minn. Stat. § 480A.08, subd. 3 (2018).
STATE OF MINNESOTA
IN COURT OF APPEALS
A18-1567
State of Minnesota,
Respondent,
vs.

Adolfo Gutierrez Avila, Jr.,
Appellant.
Filed August 5, 2019
Affirmed
Schellhas, Judge
Lyon County District Court
File No. 42-CR-14-600
Keith Ellison, Attorney General, St. Paul, Minnesota; and
Rick Maes, Lyon County Attorney, Abby Wikelius, Assistant County Attorney, Marshall,
Minnesota (for respondent)
Cathryn Middlebrook, Chief Appellate Public Defender, Jenna Yauch-Erickson, Assistant
Public Defender, St. Paul, Minnesota (for appellant)
Considered and decided by Smith, Tracy M., Presiding Judge; Schellhas, Judge; and
Jesson, Judge.
UNPUBLISHED OPINION
SCHELLHAS, Judge
Appellant challenges his convictions of, and sentences for, two counts of firstdegree criminal sexual conduct, arguing that (1) the charges are barred by the statute of

limitations and (2) the district court erred by imposing two consecutive 144-month
sentences on remand after his successful appeal. Appellant also raises several issues in his
pro se supplemental brief. We affirm.
FACTS
Respondent State of Minnesota charged appellant Adolfo Avila with two counts of
first-degree criminal sexual conduct on July 3, 2014. The complaint alleged that in July
2011, Lyon County Sheriffs Office Investigator Tony Rolling received a report indicating
that M.H. named Avila, her step-father, as the father of her nine-year-old child. Investigator
Rolling interviewed M.H., who stated that Avila had sexually assaulted her between 15
and 18 times before she became pregnant. The complaint alleged that based on the birth
date of M.H.’s child, the likely date of conception was sometime during June 2001, when
M.H. was 15 years old.
Avila moved to dismiss the charges under Minn. Stat. § 628.26(e) (2018), which
requires the state to bring a criminal-sexual-conduct charge within the later of nine years
of the commission of the offense, or three years after the offense was reported to law
enforcement.1 The district court denied the motion, finding that nothing in the record
indicated that the 2001 offenses “had been previously reported to law enforcement,” and
that the complaint was filed “within three years of the incident being reported” to law

i

We cite the current version of the statute because, although renumbered, the substance of
the current statute for purposes of this case is the same as the statute in effect at the time of
the commission of the offense. Compare Minn. Stat. § 628.26(e) (2018) with Minn. Stat.
§ 628.26(d) (2000).
2

enforcement. Avila requested reconsideration based on allegedly new evidence relevant to
the statute of limitations. The court denied the motion.
Avila continued to pursue his statute-of-limitations defense but eventually pleaded
guilty to one count of first-degree criminal sexual conduct in September 2015. One month
later, he moved to withdraw his plea. The district court denied his motion and sentenced
him to 144 months in prison. Avila appealed, claiming that his guilty plea was invalid and
that his counsel provided him ineffective assistance. This court concluded that the plea was
unintelligently entered, and reversed and remanded to allow Avila to withdraw his guilty
plea. State v. Avila, No. A16-0516 (Minn. App. May 22, 2017).
On remand, Avila waived his right to counsel and proceeded pro se. He continued
to pursue his statute-of-limitations defense, claiming that because Investigator Rolling
heard about the alleged sexual misconduct in 2003, when Rolling was employed with the
Tracy Police Department, the statute of limitations expired three years later in 2006. Avila
also claimed that even if the statute of limitations did not expire in 2006, it expired in 2010,
three years after a paternity action was filed against him alleging that he was the father of
M.H.’s child.
The district court re-opened Avila’s omnibus hearing on March 14, 2018.
Investigator Rolling testified that while he was a police officer in Tracy in 2003, he “heard”
a “rumor” from R.H., the town baker, that “Avila had gotten his daughters pregnant.”
Investigator Rolling testified that “[i]t was just a rumor,” with no “facts, dates,... anything
to substantiate that rumor,” and that he therefore did not investigate the rumor. The court
denied Avila’s motion, concluding that an “unsubstantiated rumor is not a report to law
3

enforcement that would trigger the statute of limitations,” that “[n]either the paternity
testimony nor the affidavit clearly identified] all necessary elements” of the alleged firstdegree criminal-sexual-conduct offense, and that the filing of the paternity action by Lyon
County in 2007 therefore did not constitute “a report to law enforcement.”
A jury found Avila guilty of two counts of first-degree criminal sexual conduct. The
district court imposed 144-month sentences on both counts, to be served consecutively.
This appeal follows.
DECISION
I.

Statute of limitations
Avila challenges the district court’s denial of his motion to dismiss on the grounds

that the charges against him were time-barred under the applicable statute of limitations.
We review the construction and application of a statute of limitations de novo. State v.
Carlson, 845 N.W.2d 827, 832 (Minn. App. 2014), review denied (Minn. June 17, 2014).
The applicable statute of limitations provides:
Indictments or complaints for violation of sections
609.322 and 609.342 to 609.345, if the victim was under the
age of 18 years at the time the offense was committed, shall be
found or made and filed in the proper court within the later of
nine years after the commission of the offense or three years
after the offense was reported to law enforcement authorities.
Minn. Stat. § 628.26(e). The purpose of a statute of limitation is: (1) to protect defendants
from defending themselves against crimes when the facts “may have become obscured”;
(2) to minimize the danger of official punishment for acts in the distant past; and (3) to
encourage law enforcement to promptly investigate suspected criminal activity. State v.

4

Danielski, 348 N.W.2d 352, 355 (Minn. App. 1984) (quotation and emphasis omitted),
review denied (Minn. July 26, 1984).
The district court denied Avila’s motion to dismiss under the second part of Minn.
Stat. § 628.26(e), finding that M.H. first reported the offense to law enforcement in July
2011, and that the state filed its complaint within three years of M.H.’s report. Avila argues
that the court erred because R.H. first reported the offense to law enforcement in 2003, that
the statute of limitations therefore expired in 2006,2 and that the court should have
dismissed the complaint as time-barred.
Avila’s argument requires the construction of Minn. Stat. § 628.26(e). “The
objective of statutory interpretation is to ascertain and effectuate the Legislature’s intent.”
State v. Struzyk, 869 N.W.2d 280,284 (Minn. 2015). “When interpreting a statute, the first
question is whether the language of a statute is ambiguous.” State v. Pakhnyuk, 926 N. W.2d
914, 920 (Minn. 2019). “The plain language of the statute controls when the meaning of
the statute is unambiguous.” State v. Boecker, 893 N.W.2d 348, 351 (Minn. 2017). If a
statute does not define a phrase, that phrase is given “its plain and ordinary meaning.” State
v. Defatte, 928 N.W.2d 338, 340 (Minn. 2019) (quotation omitted). And “[statutory words
and phrases must be construed according to the rules of grammar and common usage.” Id.
(quotation omitted).

2 We note that even if R.H.’s statement constituted a report to law enforcement authorities,
the statute of limitations would not have expired under Minn. Stat. § 628.26(e) in 2006, it
would have expired in 2010, nine years after the commission of the offense.
5

Minn. Stat. § 628.26(e) unambiguously states that the three-year charging deadline
is triggered when the offense is “reported to law enforcement authorities.” In State v.
Soukup, this court stated that “by ‘reporting,’ the statute means notifying law enforcement
authorities.” 746 N.W.2d 918, 922 (Minn. App. 2008), review denied (Minn. June 18,
2008). Because the term “reported” is not defined by the statute, we look to dictionary
definitions to ascertain the common and ordinary meaning of this term. See State v.
Thonesavanh, 904 N.W.2d 432, 436-37 (Minn. 2017) (looking to dictionary definitions to
determine common and ordinary meaning of undefined terms in statute).
One dictionary defines “reported” as “[t]o make or present an official or formal
account of,” or “[t]o tell about the presence or occurrence of,” or “[t]o relate or tell,
especially from personal experience.” The American Heritage Dictionary of the English
Language 1490 (5th ed. 2018). Similarly, another dictionary defines “reported” as to “make
a formal statement or complaint about (someone or something) to the necessary authority.”
New Oxford American Dictionary 1481 (3rd ed. 2010). Based on the common and ordinary
meaning of “reported,” we conclude that an offense is “reported” to law enforcement if the
report provides law enforcement with actual notice of sufficient facts that form the basis of
notice to law enforcement that a specific criminal offense may have occurred.
Moreover, while “[w]e recognize that we are not bound to follow precedent from
other states or federal courts, these authorities can be persuasive.” State v. McClenton, 781
N.W.2d 181, 191 (Minn. App. 2010), review denied (Minn. Jun. 29, 2010). And we note
that our interpretation of “reported” is consistent with foreign caselaw. See People v.
Quinto, 964 N.E.2d 379, 384-85 (N.Y. 2012) (concluding that “the phrase ‘the offense is
6

reported’ as used in [the statute of limitations] would mean a communication that, at a
minimum, describes the offender’s criminal conduct and the particular harm that was
inflicted on the victim” because “[information of this nature provides the police with
actual notice that a specific criminal offense has occurred, allowing them to conduct a
prompt investigation”); State v. Harberts, 108 P.3d 1201, 1209 (Or. Ct. App. 2005)
(explaining that offense is “reported” under Oregon statute of limitations when “there has
been actual communication of the facts that form the basis for the particular offense
reported” (quotation omitted)); State v. Green, 108 P.3d 710, 721 (Utah 2005) (stating that
something qualifies as “report of the offense” under Utah statute of limitations when there
is (1) a discrete and identifiable oral or written communication; (2) that is “intended to
notify a law enforcement agency that a crime has been committed”; and (3) that “actually
communicates information bearing on the elements of a crime as would place the law
enforcement agency on actual notice that a crime has been committed”).
Here, the rumor that R.H. relayed to Investigator Rolling in 2003 was insufficient
to put Rolling on actual notice that a specific criminal offense may have occurred. R.H.’s
statement described general conduct rather than conduct that would constitute a specific
criminal offense. For example, the actual charged offense involved Avila’s step-daughter,
M.H. In contrast, R.H. relayed a rumor that Avila got his “daughters pregnant.” Moreover,
R.H.’s relayed rumor contained no information about the age of Avila’s daughters when
Avila was rumored to have impregnated them. The age of Avila’s daughters at the time of
the rumored conduct would dictate the specific offense for which Avila could be charged.
Moreover, R.H.’s statement was vague and made with no formality, and Investigator
7

Rolling characterized R.H.’s statement as more of a “rumor” or town gossip, than a report.
A “rumor” or “town gossip” is inconsistent with the dictionary definitions of “reported.”
We therefore conclude that the district court properly determined that R.H.’s statement to
Investigator Rolling in 2003 did not constitute a report to law enforcement authorities for
purposes of Minn. Stat. § 628.26(e).
In his pro se supplemental brief, Avila contends that M.H.’s report to a social worker
in 2006, which precipitated the filing of Lyon County’s paternity action, constituted a
report to law-enforcement authorities for purposes of Minn. Stat. § 628.26(e). We disagree.
Minn. Stat. § 628.26(e) specifically requires the offense to have been “reported to law
enforcement authorities” (Emphasis added.); see Soukup, 746 N.W.2d at 922 (stating that
“by ‘reporting’ [Minn. Stat. § 628.26(e)] means notifying law enforcement authorities”).
Neither the Lyon County Attorney nor the county human services constitute law
enforcement. This conclusion is supported by statute. See Minn. Stat. § 388.051 (2018)
(defining duties of county attorney, which do not include investigation); Minn. Stat.
§ 626.556, subd. 10a(a) (2018) (distinguishing between local welfare agencies and lawenforcement agencies for purposes of investigating allegations of sexual abuse). We
conclude therefore that the district court properly determined that the filing of a paternity
action did not constitute a report to law enforcement.
In sum, neither Lyon County’s filing of the paternity action nor R.H.’s statement to
Investigator Rolling in 2003 constituted a report to law enforcement for purposes of Minn.
Stat. § 628.26(e). Instead, based on the record, M.H. first reported Avila’s offense to law
enforcement on July 20, 2011, and the state filed its complaint against Avila on July 3,
8

2014, within three years after the offense was first reported to law enforcement.
Accordingly, the district court properly concluded that the statute of limitations under
Minn. Stat. § 628.26(e) had not expired and the charges against Avila therefore were not
time-barred.

n.

Consecutive sentences
Avila challenges the district court’s imposition of consecutive sentences following

his convictions of two counts of first-degree criminal sexual conduct on the bases that the
sentence penalized him for a successful appeal and is excessive. We disagree.
Consecutive sentences are permissible punishment for criminal sexual conduct
committed in violation of Minn. Stat. § 609.342, subd. 1. Minn. Sent. Guidelines ILF.
(2000). "‘We review a district court’s decision to impose consecutive sentences for an abuse
of discretion.” State v. Ali, 895 N.W.2d 237, 247 (Minn. 2017). We will not interfere with
a district court’s discretion unless the sentence is disproportionate to the crime or unfairly
exaggerates the criminality of the defendant’s conduct. Id.
The supreme court has held that it was improper for a district court “to impose on a
defendant who has secured a new trial a sentence more onerous than the one he initially
received.” State v. Holmes, 161 N.W.2d 650, 652 (Minn. 1968). In concluding that this
decision was based on public policy, and not on constitutional grounds, the court explained
that “as a matter of law . . . any increase in penalty upon a retrial inevitably discourages a
convicted defendant from exercising his legal rights.” Id. at 653. The supreme court later
expanded on Holmes and held that “procedural fairness and principles of public policy”
prohibit a district court from imposing a more severe sentence for the same crime after a
9

case has been remanded for resentencing. State v. Prudhomme, 228 N.W.2d 243, 246
(Minn. 1975).
After remand, the district court’s sentence of Avila on count I is the same sentence
that followed Avila’s guilty plea. Although the aggregate total of Avila’s sentence is longer
after remand, the sentence includes a sentence for first-degree criminal-sexual conduct, a
conviction Avila avoided by pleading guilty. Because Avila’s sentence on count I is the
same after remand as was imposed following his guilty plea, his sentence for count I is not
more onerous, and Avila therefore cannot demonstrate that his sentence violated his dueprocess rights.
Avila also contends that his total aggregate sentence of 288 months is “excessive”
and “a product of the charging decision to create two counts.” But “a prosecutor has broad
discretion in the exercise of the charging function and ordinarily, under the separation-ofpowers doctrine, a court should not interfere with the prosecutor’s exercise of that
discretion” absent special circumstances. State v. Foss, 556 N.W.2d 540,540 (Minn. 1996).
Avila cannot show that special circumstances exist here. Moreover, consecutive sentences
are permissible under the sentencing guidelines, even when the offenses involve a single
victim. See Minn. Sent. Guidelines II.F.; see also State v. Perleberg, 736 N.W.2d 703, 706
(Minn. App. 2007), review denied (Minn. Oct. 16, 2007). The record reflects that Avila
sexually assaulted his step-daughter several times over a seven-month period, which
ultimately resulted in her pregnancy. Under the circumstances, Avila’s sentence is not
excessive, particularly when compared to sentences imposed in similar cases. See State v.
Suhon, 742 N.W.2d 16, 23 (Minn. App. 2007), review denied (Mirui. Feb. 19, 2008)
10

(affirming imposition of consecutive sentences totaling 278 months in prison for three
counts of criminal sexual conduct based on 832 acts of abuse over 11 years); see also
i

Perleberg, 736 N.W.2d at 707 (affirming imposition of three consecutive sentences of 144
months, which totaled 432 months in prison when defendant was convicted of six counts
of first-degree criminal sexual conduct involving one victim). We conclude that the district
court did not abuse its discretion by sentencing Avila consecutively on the two counts of
first-degree criminal sexual conduct.
III.

Pro se arguments
In addition to the statute-of-limitations arguments addressed above, Avila argues in

his supplemental brief that (A) a Brady violation occurred; and (B) the prosecutor
i

committed misconduct.
A.

Brady violation

The state has an affirmative duty in criminal cases to disclose evidence that is
favorable and material to the defense. Brady v. Maryland, 373 U.S. 83, 87, 83 S. Ct. 1194,
1196-97 (1963); State v. Williams, 593 N.W.2d 227, 234 (Minn. 1999). To constitute a
Brady violation, the following three requirements must be established:
(1) the evidence must be favorable to the defendant because it
would have been either exculpatory or impeaching;
(2) the evidence must have been suppressed by the prosecution,
intentionally or otherwise; and
(3) the evidence must be material—in other words, the absence
of the evidence must have caused prejudice to the defendant.

11

Zornes v. State, 903 N.W.2d 411,417 (Minn. 2017) (quotation omitted). “Because a Brady
materiality analysis involves a mixed question of law and fact, [appellate courts] review a
district court’s materiality determination de novo.” Id. (quotation omitted).
Avila asserts that in the redacted portion of an affidavit signed by M.H. in May
2006, M.H. stated that she believed she got pregnant in July 2001, which is inconsistent
with the charges brought by the state that alleged in count I that Avila committed firstdegree criminal sexual conduct in June 2001, and in count II that the sexual abuse occurred
in January-April 2001. Avila contends that because M.H. was unable to read the redacted
portion of the affidavit, he was unable to impeach her with the May 2006 affidavit. Avila
argues that the redaction of the affidavit constitutes a Brady violation.
Assuming, without deciding, that Avila’s construction of the affidavit is correct, the
first two Brady requirements are satisfied because the evidence could have been used to
impeach M.H.’s testimony on the elements of count I, and the redaction of the affidavit
appeal's to indicate intent by the state. As a result, Avila’s arguments turn on the third
element, materiality.
Evidence is considered material for purposes of a Brady violation “if there is a
reasonable probability that, had the evidence been disclosed to the defense, the result of
the proceeding would have been different.” Id. at 418 (quotations omitted). A “reasonable
probability” is defined as one that is sufficient to undermine confidence in the verdict. Id.
Here, no reasonable probability exists that, had the affidavit not been redacted, the
result of the proceeding would have been different. As Avila acknowledges in his main
brief, M.H. testified at trial that (1) Avila sexually assaulted her more than ten times and
12

that these assaults occurred between January and April 2001, and in the summer of 2001;
(2) she became aware that she was pregnant around July 2001, which is not completely
inconsistent with her May 2006 affidavit; (3) the baby was bom on March 6, 2002; (4) she
had no other sexual partners; and (5) Avila was adjudicated the father of her daughter based
on DNA testing. Avila’s claim that a Brady violation occurred therefore fails.
B.

Prosecutorial misconduct

Avila contends that the Lyon County Attorney committed prosecutorial misconduct
by “not authorizing the release” to the Lyon County Sheriff the 2006 report M.H. made to
human services regarding the sexual abuse. To support his claim, Avila cites Minn. Stat.
§ 626.556, subd. 3(b) (2018), which provides that a person “may voluntarily report to the
local welfare agency, agency responsible for assessing or investigating the report, police
department, [or] county sheriff... if the person knows, has reason to believe, or suspects
a child is being or has been . . . subjected to . . . sexual abuse.” (Emphasis added.) But
“may” is “permissive.” Minn. Stat. § 645.44, subd. 15 (2018). And Avila cites no legal
authority to support his prosecutorial-misconduct claim. We need “not consider pro se
claims on appeal that are unsupported by either arguments or citations to legal authority.”
State v. Bartylla, 755 N.W.2d 8, 22 (Minn. 2008). Moreover, Avila was not prejudiced by
the alleged prosecutorial misconduct. He therefore is unable to demonstrate that he is
entitled to relief from the claims raised in his pro se supplemental brief.
Affirmed.

13

APPENDIX C
PETITION FOR REVIEW
MINNESOTA SUPREME COURT
RE

REVIEW DENIED ORDER Dated October 15,2019

A18-1567
STATE OF MINNESOTA
IN SUPREME COURT

State of Minnesota,
Respondent,
vs.
Adolfo Gutierrez Avila, Jr.,
Petitioner.

PETITION FOR REVIEW OF
COURT OF APPEALS’ DECISION

KEITH M. ELLISON
Minnesota State Attorney General
1800 Bremer Tower
445 Minnesota Street
St. Paul, MN 55101
RICK MAES
Lyon County Attorney
BY: ABBY WIKELIUS
Assistant Lyon County Attorney
Government Center
607 West Main Street
Marshall, MN 56258

ATTORNEYS FOR RESPONDENT

OFFICE OF THE MINNESOTA
APPELLATE PUBLIC DEFENDER

JENNA YAUCH-ERICKSON
Assistant State Public Defender
License No. 0392035
540 Fairview Avenue North
Suite 300
St. Paul, MN 55104
Tel: (651)201-6700

ATTORNEY FOR PETITIONER

I

A18-1567
STATE OF MINNESOTA
IN SUPREME COURT

State of Minnesota,
PETITION FOR REVIEW OF
DECISION OF COURT OF APPEALS
FILED ON AUGUST 5, 2019

Respondent,
vs.

Adolfo Gutierrez Avila, Jr.,
Petitioner.

TO:

THE MINNESOTA SUPREME COURT
Petitioner Adolfo Avila requests Supreme Court review of the above-entitled

decision of the court of appeals.
I.

Parties

The parties and counsel are identified on the front cover of this petition.
II.

Decision Appealed

Petitioner requests review of the August 5, 2019 opinion of the court of appeals
which affirmed his convictions and sentence for first-degree criminal sexual conduct.
(Addendum.)
III.

i

Legal Issue

The statute of limitations in Minnesota Statutes section 628.26(e) is triggered when an
offense is “reported to law enforcement authorities.” What level of specificity is required
of a communication to law enforcement authorities to constitute a “report” and trigger the
limitations period?
1

In 2003 a concerned citizen told a law enforcement officer that Avila “got his daughters
pregnant.” (Doc. 371 at 9, 20-21.) The officer did not investigate this information. (Doc.
371 at 12, 18.) Avila was not charged with criminal sexual conduct until 2014. (Doc. 403.)
The district court denied Avila’s motion to dismiss the charges on statute of limitations
grounds, holding that the 2003 communication was merely a “rumor” and did not constitute
a report. (Doc. 368.) The court of appeals affirmed, holding for the first time in Minnesota
that to constitute a “report” a communication must provide law enforcement with “actual
notice of sufficient facts...that a specific criminal offense may have occurred.”
(Addendum at 6.)
IV.

Procedural History

January-July, 2001

Date range of alleged offenses.

July 3,2014

The State charged petitioner with two counts of first-degree
criminal sexual conduct, Minn. Stat. § 609.342, subds. 1(g),
l(h)(ii).

September 22, 2015

Plea hearing. Petitioner pleaded guilty to one count of criminal
sexual conduct and the State dismissed the remaining count.

December 29, 2015

Sentencing.

The district court sentenced petitioner to 144

months in prison.
March 30, 2016

Petitioner directly appealed his guilty plea.

May 22, 2017

The court of appeals reversed and remanded for withdrawal of
petitioner’s guilty plea.

March 14, 2018

Reopened omnibus hearing, the Honorable Leland Bush
presiding.

April 9,2018

Judge Bush denied petitioner’s motion to dismiss based on
statute of limitations.

2

r •

/
</

April 25, 2018

Jury trial before Judge Bush. The jury returned two guilty
verdicts.

June 26, 2018

Judge Bush sentenced petitioner to two terms of 144 months,
to be served consecutively.
V.

Statement of Facts

M.H. testified that in 2001, when she was fifteen, Avila sexually assaulted her more
than ten times. M.H. testified that she could not remember exact dates but that these
assaults occurred between January and April 2001 and in the summer of 2001. M.H.
testified that she became pregnant when she was fifteen and her daughter was born March
6, 2002. M.H. personally reported the conduct to law enforcement on July 20, 2011.
The State charged Avila on July 3,2014, with two counts of criminal sexual conduct
which collectively alleged conduct occurring between January and July 2001.
When M.H. reported the sexual conduct in 2011, she gave a recoded interview to
Investigator Tony Rolling of the Lyon County Sheriffs Office. But 2011 was not the first
time Rolling learned of the allegations. Rolling had previously worked for the Tracy police
department, from 1997 to 2003. During his employment with Tracy police, a person named
Ray Hay reported to Rolling that Avila committed criminal sexual conduct against his
stepdaughters, resulting in pregnancy. Rolling recalled that Hay told him, “Adolfo Avila
had gotten his [step]daughters pregnant.” Despite the serious nature of this allegation,
Rolling wrote no police report and did no investigation.
Rolling documented Hay’s report various times during his 2011 investigation.
Rolling’s 2011 police report noted that he had heard a “rumor” of Avila’s criminal sexual
3

conduct when he worked for Tracy. During his interview with M.H., Rolling discussed the
trailer home in Tracy where M.H.’s family lived in 2001 and said “that is where you guys
were living when I first heard about it.” Indeed, something like fifteen years later Rolling
was able to remember that it was Ray Hay, who worked at the Tracy Bakery, who originally
reported the crime.
VI.

Reasons for Granting Review

The purpose of statutes of limitation is to “limit exposure to criminal prosecution to
a certain fixed period of time,” to protect against delayed prosecution, to minimize
punishment based on “far-distant” acts, and to encourage law enforcement to “promptly
investigate suspected criminal activity.” Toussie v. United States, 397 U.S. 112, 114-15
■<

(1970). Statutes of limitation are important to the varied stakeholders in the criminal justice
system: to defendants, to crime victims who sometimes delay reporting of offenses, and to
attorneys and judges who need certainty in the application of the law. That is, the
interpretation of statutes of limitation is exceedingly and broadly important.
The alleged criminal sexual conduct in this case occurred in 2001. Avila was not
charged until 2014. This was outside the general limitations period of nine years. Minn.
Stat. § 628.26, subd. (d) (2000).1 The complaint against Avila was timely only if filed
within three years of the offense being “reported to law enforcement authorities.” Id. The
State argued that the only triggering report occurred in 2011 and within three years the

This statute has been renumbered as § 628.26, subd. (e) (2018), but its substance
remains the same. See Addendum at 2 n. 1.
4

&

State filed charges. Avila argued that the limitations period expired before he was charged
because there were qualifying reports to law enforcement first in 2003 and second in 2006.
This case required the district court and court of appeals to conduct statutory
interpretation of Minn. Stat. § 628.26, subd. (d) (2000), to determine whether the citizen’s
2003 communication to Investigator Rolling constituted a report and triggered the
limitations period. See Addendum at 5. Neither the word “reported” nor “report” is defined
within the limitations statutes. The court of appeals has held that a report means “notifying
law enforcement authorities.” State v. Soukup, 746 N.W.2d 918, 922 (Minn. App. 2008).
But no published Minnesota case has considered what level of specificity is required for a
communication to law enforcement to constitute a report. The court of appeals here relied
on dictionary definitions to hold for the first time in Minnesota that “an offense is ‘reported’
to law enforcement if the report provides.. .actual notice of sufficient facts.. .that a specific
criminal offense may have occurred.” (Addendum at 6.) The court of appeals did not
publish this opinion. This statutory interpretation of first impression merits review by this
Court, particularly because it involves the important matter of limitations in criminal
charging and prosecution.

5

VII.

Conclusion

For the reasons stated herein, Avila respectfully requests that this Court grant his
petition for review.
Dated: August 19, 2019

Respectfully Submitted,

JENNA YAUCH-ERICKSON
Assistant State Public Defender
License No. 0392035
i

540 Fairview Avenue North
Suite 300
St. Paul, MN 55104
ATTORNEY FOR PETITIONER

i

6
i

flUQ
? October 15, 20T9^'1

STATE OF MINNESOTA .
IN SUPREME COURT

Appqjaie Courts i

n

A18-1567

State of Minnesota,
Respondent,
vs.
Adolfo Gutierrez Avila, Jr.,
Petitioner.
ORDER
Based upon all the files, records, and proceedings herein,
IT IS HEREBY ORDERED that the petition of Adolfo Gutierrez Avila, Jr. for further
review be, and the same is, denied.
Dated: October 15, 2019

BY THE COURT:

Lorie S. Gildea
Chief Justice

APPENDIX D
RU

RULE 60 MOTION DatedJune 30,2021
BRIEF Dated June 30,2021
JUDGEMENT ENTERED January 13,2021
JUDGEMENT ENTERED January 26,2021
ORDER DENYING RULE 60 motion dated July 8,2021

.»

Case: 0:19-cv-03112-PJS-ECW

<4 .

Document#: 57-0
2

Date Filed: 07/06/2021

Page 1 of

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
Adolfo G. Avila Jr.
0.I.D.#248824
(Petitioner)
vs.

Msem
Case No. 9 :19-cv-03112-PJS-ECW

Warden Vicky Janssen

(Respondent)
MOTION TO/FOR
Based on Rule 60(b)(3)fraud(Judicial Misconduct)
(Provide basis for Motion)
The following party/parties (insert the names of all parties who are filing the Motion):
Adolfo Gutierrez Avila Jr.

in the

above-named case hereby move(s) the United States District Court, District of Minnesota for an
Order to: (state what you want the Court to order)
Petitioner respectfully requests for the Lyon County Judgement
i

be overturned and Petitioner be released from custody. For the
Lyon County Judgement violates the Due Process Clause in the 14
Amendment in the U.S. Federal Constitution,
because:

JUL 0 6 2021 **
U.S. DISTRICT COURT MPLS

>*

4

'

Case: 0:19-cv-03112-PJS-ECW

Document #: 57-0
2-

Date Filed: 07/06/2021

Page 2 of

(In numbered paragraphs, briefly list main reasons the Motion should be granted. Attach
additional sheets of paper if necessary; more detail must be provided in a Memorandum of Law
accompanying the Motion.)
1.Judge Bush willfully "unreasonably applied" clearly established
federal law as determined by the Supreme Court of the U.S,
constituting Judicial Misconduct and a violation of the Due
2. Process Clause in the 14th Amendment in the U.S. Federal
Constitution. The Statute of limitations claim is not proceduraily barred
Which it is the claim Judge Bush prejudiced with fraud.
Said Motion is based upon the attached Memorandum of Law, Exhibits attached.
(identify all other supporting documents that are
being submitted with the Motion, if any) and all of the files, records, and proceedings herein.
Signed this 30 day of June

, 20 21,

Signature of Party
Mailing Address

Adolfo G. Avila Jr.
0.I.D.#248824
MCF-Rush City
7600 525th st.
Rush City.Mn 55069

Telephone Number

Note: All parties filing the Motion must date and sign the Motion and provide his/her mailing
address and telephone number. Attach additional sheets of paper as necessary. The Motion
must be served on each party, together with the Notice of Hearing, the Memorandum of Law and
other accompanying documents, if any.

2

Case: 0:19-cv-03112-PJS-ECW

Document #: 58-0

Date Filed: 07/06/2021

Page 1 of

19

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
Adolfo G. Avila ^r.
0.I.D.#248824
Petitioner

ns,

vs.

Case No.
0:19-CV-03112-PJS-ECW

received by mail
Warden Vicky Janssen
Respondent

JUL 06 2021
CLERK, U.S. DISTRICT COURT
MINNEAPOLIS, MINNESOTA
Memorandum of Law

^ In Support of or
In Opposition to
(Check “In Support of5 if you are filing the motion and “In Opposition to” if you are opposing
the Motion that was filed.)

Rule 60(b)(3)fraud(Judicial Misconduct)
(Name of Motion filed)
Provide below an explanation of why the Motion should be granted or denied. Your explanation
should be provided in consecutively numbered paragraphs. If you run out of space, you may
attach additional sheets of paper and continue to number your paragraphs.

1.

MEMORANDUM OF LAW
COVER SHEET

JUL 0 6 2021
U.S. DISTRICT COURT MPLS

f\f\ '“20 A>- U’

yi/O

'ioc/r^

do u cl
Z
^L'\ct° Y; Af***^*- ^ 17??
t t'i- rV*^7 X 4
/i

fy-YKOv(^
rfXy

^AU-

<K

fir& ji^sri-^ j

/u r <Ua~)

s A_<t(/(

r

GLtLy

0-d m.i ldb-erj~y

(

IjiH-cY^ <?W ()r»CeJiS 0^It

*4j r

~f~6 fi-'l'j /)'<-TW*\

)onSX^h^>y

^1 ^L'V / ^f

A efW psvkcM*^ a**

fi*- Zt 4/.
^C5~ CjT <Vn.5 Z

x

/ ^j P^f,/ ^ /L(

V Case: 0:19-cv-03112-PJS-ECW

Document #: 58-CK Date Filed: 07/06/2021

19

Page 2 of

Rights guaranteed to Petitione^by^the^Due Process Clause in the 14th Amendment
of the United States Federal Constitution' nave been violated for the following
..................
reason(s):
1. “unreasonable application” of clearly established state law pertaining to
the statute of limitations defense. In violation of State v. Soukup, 746 N.W.
2d 918,922(Minn. App.2008).
2. “unreasonable application” of clearly established federal law pertaining to
the statute of limitations defense. In violation of Toussie v. U.S., 397 U.S.
112,25 L. Ed. 2d 156(1970).
3. “unreasonable application” of clearly established federal law pertaining to
perjury. In violation of U.S. v. Dunnigan, No.91-1300. February 23,1993.
4. “unreasonable application” of clearly established federal law pertaining to
Prosecutor Misconduct (Brady Violation). In violation of Brady v.
Maryland, 373 U.S. 83(1963).
5. “unreasonable application” of clearly established federal law pertaining to
sentencing. In violation of North Carolina v. Pearce,395 U.S. 711, 72526(1969) and State v. Carver,390 N.W.2d 431, 434(Minn.App.l986).
And State v. Johnson, 733 NW2d 834(Minn.App.2007);
6. Judicial Misconduct targeting a person of color with vindictiveness
contributing to systemic racism. In violation of In re Anderson, 312 Minn.
442, 252 N.W.2d 592(1977).
1

Adolfo Avila

; Case: 0:19-cv-03112-PJS-ECW

Document #: 58-0

19

Date Filed: 07/06/2021

Page 3 of

1 )In the laws of mandatory reporting (M.S.626. 556.Reporting) there is no
substantial basis at all for the conclusion to label a report of sexual abuse of a
minor a “rumor”. Which to the contrary it is state law that any information that
describes any type of abuse of a minor(s) constitutes a report. Thus, Judge Bush’s
ruling to label the report of sexual abuse of M.H. a “rumor” is an “unreasonable
application” of clearly established state law.
See M.S.626. 556.Subd.2. Definitions, (m) “Report” means any
communication received by the local welfare, police department, county
sheriff, or agency responsible for the child protection pursuant to this section
that describes neglect or physical or sexual abuse of a child....
See State v. Soukup, 746 N.W. 2d 918,922(Minn.App.2008).
(In order to qualify as a “report” under section 628.26, it must be a
“report” to law enforcement authorities.”)
Petitioner asserted his Federal Rights protected by the Due Process Clause in the
14th Amendment to Judge Bush in court proceedings, in briefs and motions. The
“unreasonable application” of clearly established state and federal laws was
brought to Judge Bush’s attention by Petitioner quoting and citing state and federal
case law. Judge Bush still used the “unreasonable application” of clearly
established state and federal laws to defeat Petitioner’s asserted federal Rights
constituting a violation of the Due Process Clause in the 14th Amendment.
See Sun Oil Co. v. Wortman,486 U.S. 717, 731(1988) (a misconstruction of sisterstate law “that is clearly established and that has been brought to the court’s
attention” would violate due process.).

2
Adolfo Avila

; Case: 0:19-cv-03112-PJS-ECW

Document#: 58-0

19

Date Filed: 07/06/2021

Page 4 of

2) Judge Bush’s decision of when the statute of limitations begins to run is both
“contrary to” and involves an “unreasonable application” of clearly established
federal law as determined by the Supreme Court of the U.S. See Toussie v. U.S.,
397 U.S. 112,25 L. Ed. 2d 156(1970).
In Toussie v. United States, the Supreme Court answered the question of when the
statute of limitations starts to run by considering the purpose served by the
limitation, the nature of the crime and the legislative intent. The following general
principles were discussed: Three main rationales animate statute of limitations: 1)
protecting defendants from delayed prosecution where the facts “may have become
obscured by the passage of time,” 2) minimizing “the danger of official
punishment [for] acts in the far-distant past.” And 3) encouraging law enforcement
to promptly investigate suspected criminal activity.
1) That criminal limitations statutes are to be liberally interpreted in favor of
repose.
2) The statute of limitations normally begins to run when the crime is complete.
3) And congress has declared a policy that the statute of limitations should not
be extended “except as otherwise expressly provided by law.”
By permitting the time-barred charges to proceed, Judge Bush subjected Petitioner
to prosecution even'though the delay obscured many facts (the 2006 Lyon County
Sheriff report) and subjected him to punishment for distant acts and allowed the
state to avoid “properly investigating] suspected criminal activity.”
3
Adolfo Avila

/ Case: 0:19-cv-03112-PJS-ECW

Document #: 58-0

Date Filed: 07/06/2021

Page 5 of

19

The record established that the reporting of the act that constitutes the crime
charged in the July 3,2014 criminal complaint was reported to Officer Rolling in
2001 constituted official involvement. Which triggered the statute of limitations 3year period in section 628.26(e) (2009). Quoting Officer Rolling from the July
25,2011 interview of M.H.: See Exhibit 2 (pg.9)
Officer Rolling: But did you find out you were pregnant in Marshall or Tracy?
Maria: Tracy, when I was in school in Tracy.” (pg. 9 lines 3 and 4.)
Officer Rolling: Okay. Living at the trailer court because I knew you guys lived in
the trailer court sometime.
Maria: mhmm
Officer Rolling: Was it the trailer house right when you come off Greenwood?
Maria: Yeah.
Officer Rolling: You come in and it is right there?
Maria: Yeah.
Officer Rolling: Okay was it blue or something?
Maria: Yeah.
Officer Rolling: Yup. And that is where you guys were living when I first heard
about it. You guvs were living in the trailer court. Were your other sisters pregnant
at that time or? See Exhibit 2(pg.9 lines 3,4 and 16 to 25)
In this interview M.H. made a statement that the family moved from the trailer
court to the farm around March 2002:
Maria: “I was 16, she was probably, I don’t know a month or so old or something.
When we moved out there. Because I had her in March.”(pg. 6 lines 9,10)
Officer Rolling discovered the offense(s) between July 5,2001 and March 2002.
See Exhibit 2 (pg.6 lines 9 and 10) and Exhibit 4.

4
Adolfo Avila

; Case: 0:19-cv-03112-PJS-ECW

Document #: 58-0

19

Date Filed: 07/06/2021

Page 6 of

Another important purpose of the statute of limitations is to protect a defendant
from having to defense himself against stale charges. In this case the local law
enforcement authorities (Officer Rolling) was notified of the particular conduct
constituting the offense(s) (sexual-penetration/pregnancy of M.H.) any were from
July, 5 2001 and March 2002. The same conduct constituting the offense(s)
charged in the July 3,2014 criminal complaint drafted and signed by Officer
Rolling. See Exhibit 7. It took Officer Rolling 13 years to draft and sign the
Offense(s) reported to him in 2001. Which Officer Rolling has made a career out
of law enforcement since 1997 and continues to be a law enforcement officer
today. Which this case is based on the statute of limitations 3-year period. Which it
was triggered around March 2002. In applying the principles in Toussie v. U.S. to
this case. The strict application of the statute of limitations 3-year period in section
628.26(e) (2009) does apply for Officer Rolling discovered the offense(s) between
July 5,2001 and March 2002 constituting official involvement. But did not draft
and bring the criminal complaint until July 3,2014 to the prosecuting authorities.
Officer Rolling’s actions were the direct cause for the 13-year delay in prosecuting
the offense(s). Which congress has declared a policy that the statute of limitations
should not be extended “except as otherwise expressly provided by law.” Judge
Bush’s labeling the report of sexual abuse of M.H. a “rumor” does not equal to
“expressly provided by law.”

Adolfo Avila

5

: Case: 0:19-cv-03112-PJS-ECW

Document #: 58-0

Date Filed: 07/06/2021

Page 7 of

19

Judge Bush’s ruling to label the report of sexual abuse of M.H. a “rumor” resulted
in a decision that was both “contrary to” and involved an “unreasonable
application” of clearly established governing law set forth in the Supreme Court
case Toussie v. U.S., pertaining to when the statute of limitations begins to run.
Under the “unreasonable application” clause, the statute clear that habeas may
(is)
issue under 28 U.S.C.S. & 2254(d)(1). If a state court “decision” is contrary to
clearly established federal law.
See Williams v. Taylor, 529 U.S. 362 Supreme Court of the U.S. (April 18,2000)
“under 2254(d)(l)’s “unreasonable application” clause, a federal court may grant a
writ of habeas corpus if a state court identifies the correct governing legal principle
from the Supreme Court’s decisions but unreasonably applies that principle to the
facts of the prisoner’s case.”
This case falls under section 2254(d)(1) resulted in a decision that was contrary to,
or involved an “unreasonable application” of clearly established Federal law, as
determined by the Supreme Court of the United States; or
A. STANDARD OF REVIEW
Reasonableness Standard
APPOSITE AUTHORITY
Lindh v. Murphy. 96 F.3 856 (7th Cir.1996).
STANDARD OF CORRECTNESS
The law in effect at the time the decision became final.
APPOSITE AUTHORITY
Teague v. Lane, 489 U.S. 288,310(1989)
Also falls under section 2254(b)(l)(B)(ii) circumstances exist that render such a
process ineffective to protect the rights of the applicant. See, Panetti v. David,863
F.3d 366, 373-74(5^ Cir. 2017). (Due Process Violation).
6
Adolfo Avila

; Case: 0:19-cv-03112-PJS-ECW

Document #: 58-0

19

Date Filed: 07/06/2021

Page 8 of

3) Judge Bush’s decision to deny Petitioner’s motion to dismiss pertaining to
i

Officer Rolling’s perjury that prejudiced the statute of limitations defense is both
“contrary to” and involved an “unreasonable application” of clearly established
federal law as determined by the Supreme Court of the U.S. See U.S. v. Dunnigan,
No 91-1300. (February 23, 1993). In U.S. v. Dunnigan, the Supreme Court set out
the parameter of perjury within the U.S. law. The court uses the Dunnigan -based
legal standard: a defendant (a) knowingly made a (b) false (c) material statement
(d) under oath (e) in a legal proceeding.
The Dunnigan distinction manifests its importance with regard to the relation
between two components parts of perjury’s definition: in willfully giving a false
statement, a person must understand that he is giving a false statement to be
considered a perjurer under the Dunnigan framework. Deliberation on the part of
the defendant is required for a statement to constitute perjury.
It is clearly documented by Officer Rolling himself that he knew of the
offense(s) charged since 2001. Which he acknowledged to M.H. in the July
25,2011 interview and documented it also in his July 26,2011 Lyon County
Sheriffs report. Which these statements must be true because as a police officer
just doing his job documented everything to initiate the case. And he was not under
oath when he made the first statements material to the statute of limitations
defense. Plus, the statute of limitations defense had not been brought up yet.
7
Adolfo Avila

: Case: 0:19-cv-03112-PJS-ECW

Document#: 58-0

19

Date Filed: 07/06/2021

Page 9 of

First material statements made to the statute of limitations defense:
In July 25,2011, Quoting Officer Rolling from July 25,2011 interview ofM.H.:
Officer Rolling:” but did you find out you were pregnant in Marshall or Tracy?”
Maria:” Tracy, when I was in school in Tracy.”
Officer Rolling:” Yup. And that is where you guys were living when I first heard
about it. You guvs were living in the trailer court.” See Exhibit 2(pg.9)
In the July 26,2011 Lyon County Sheriff Report (Introduction statement)
“On July 25, 2011 1 conducted an interview with Maria Herrera at the Lyon
County Sheriffs Office. I began speaking with Maria and introduced myself. I
explained that, prior to working at the Lyon County Sheriffs Office, I had been a
police officer with the City of Tracy. I explained that while working there I had
heard a rumor that Adolfo Avila had gotten his daughters pregnant but I was never
able to substantiate that. I explained that I was somewhat familiar with the
situation, and if she could tell me what had all occurred.” See Exhibit 3.(pg. 2)
Once the statute of limitations defense was raised at the June 30,2015 omnibus
hearing Officer Rolling made his first false material statement to the statute of
limitations defense. Completely contradicting his statements made in 2011, 4 years
earlier. Which he was under oath this time: Quoting Officer Rolling from the June
30,2015 omnibus hearing: See Exhibit 5 (pg*4)
Prosecutor Rick Maes:” Now, Officer, can you tell us when this matter was first
reported to the Law Enforcement Agency?”
Officer Rolling:” I received the report in July 2011.”
Prosecutor Rick Maes:” Was that the first time you were notified of any alleged
misconduct involving Mr. Avila and the alleged victim?”
Officer Rolling:” That was the first time it was reported to me.”
Officer Rolling (a) knowingly made a (b) false (c) material statement (d) under
oath (e) in a legal proceeding directly affecting the statute of limitations defense
outcome constituting perjury.
8
Adolfo Avila

*. Case: 0:19-cv-03112-PJS-ECW

Document #: 58-0
of 19

Date Filed: 07/06/2021

Page 10

h

r
I

Since Officer Rolling made contradicting statements pertaining
to the statute of limitations defense another omnibus hearing
was done on March 14,2018. This time Officer Rolling acknowledged
the report of sexual abuse of M.H. but labeled it a "rumor".
Which Officer Rolling's wilfulness to withhold information,
to dodge questions, to avoid the word"notified", not answer
questions, or make petitioner repeat himself and call Petitioner
a rapist are clearly documented. See Exhibit 1.
Officer Rolling's perjury was so obvious that petitioner called
him out on it. Quoting Petitioner:
1 V

Petitioner:"Perjury is a crime against administration of justice.
And
And in just going by your statement, it's obvious that
you investigated,sir. So obviously, you're withholding
information right now." See Exhibit 1 (pg.20)
Even after Petitioner called him out on his perjury Officer
Rolling flat out lied:-Quoting Officer Rolling when asked if the
recording of the July 25,2011 interview of M.H. existed which he
conducted the interview and made the recording of M.H.:
Officer Rolling:" I don't know for certain that her's was recorded
i:c
If there's a recording,I guess.There may be one.
I don't know.If it was done in the interview room
there very well could be one." See Exhibit l(pg.2i)
Clearly this is very strong corroborative evidence proving that
Officer Rolling willfully and (a) knowingly made a (b) false
(c) material statement (d) under oath (e) in a legal proceeding.
The July 25,2011 interview recording of M.H. was finally given to
Petitioner on April 20,2018.Which supposedly it did not exist for
7 years. See Exhibit 22.
9

; Case: 0:19-cv-03112-PJS-ECW

Document #: 58-0
of 19

Date Filed: 07/06/2021

Page 11

Even after 7 years that the July 25,2011 interview recording of
M.H. made by Officer Rolling was finally given to Petitioner only
a partial recording was given to Petitioner not all of it.
See Minnesota law 626.561 Interviews with child abuse victims.
Subd.3. Record required. Whenever an interview is conducted,
the interviewer must make a record of the interview. The
record must contain the following information:
the date,time,place,and duration of the interview^
the identity of the persons present at the interview;
The records shall be maintained by the interviewer in accordance
with applicable provisions of section 626.556.subdivision 11
and chapter 13. See copy attached.
If you listen to the recording all of the details outlined above

as

and Officer Rolling*s introduction statement are missing. In
order to delete the introduction statement which Officer Rolling
documented in his July 26,2011 Lyon County Sheriffs report. You
would have to delete anything in front of it. That is why all the
details mentioned above required by law are missing. See Exhibit 3.
This is more corroborative evidence that proves Officer Rolling's
wilfulness to withhold information specifically pertaining to the

f

statute of limitations defense. Obviously the introduction statement
"Adolfo Avila got his daughters pregnant,but I was never able to
substantiate that. I explained that I was somewhat familiar with
the situation,and if she could tell me what had all occurred."Exhibit 3
would have more weight if heard in audio form. Plus what other
information material to Petitioner was destroyed?
Officer Rolling deviated from standard procedure by withholding
the July 25,2011 interview of M.H. for 7 years after numerous
requests for discovery and by destroying the first half of the
July 25,2011 interview of M.H.. Which under Arizona v. Youngblood's
Dbaddfaith standard it constitutes a violation of the Due Process
Clause in the 14th Amendment. See Arizona v. Youngblood,
and Amadeo v. Zant, 486 U.S.214(1988)"when the government concealed
evidence a prisoner needed to prove his claim."
c- .

10

;

Case: 0:19-cv-03112-PJS-ECW

Document #: 58-0
of 19

Date Filed: 07/06/2021

Page 12

Under the “unreasonable application” clause, the statute is clear that habeas may
issue under 28 U.S.C.S. & 2254(d)(1). If a state court “decision” is contrary to
clearly established federal law.
See Williams v. Taylor, 529 U.S. 362 Supreme Court of the U.S. (April 18,2000)
r

“under 2254(d)(l)’s “unreasonable application” clause, a federal court may grant a
writ of habeas corpus if a state court identifies the correct governing legal principle
from the Supreme Court’s decisions but unreasonably applies that principle to the
facts of the prisoner’s case.”
This case falls under section 2254(d)(1) resulted in a decision that was contrary to,
or involved an “unreasonable application” of clearly established Federal law, as
determined by the Supreme Court of the United States; or
A. STANDARD OF REVIEW
Reasonableness Standard
APPOSITE AUTHORITY
Lindh v. Murphy, 96 F.3 856 (7th Cir.1996).
STANDARD OF CORRECTNESS
The law in effect at the time the decision became final.
APPOSITE AUTHORITY
Teague v. Lane, 489 U.S. 288,310(1989)
Also falls under section 2254(b)(l)(B)(ii) circumstances exist that render such a
process ineffective to protect the rights of the applicant. See, Panetti v. David,863
F.3d 366, 373-74(5th Cir. 2017). (Due Process Violation).
The perjury by Officer Rolling are grounds for reversal of the .1
conviction. Which prejudiced Petitioner's statute of limitations
claim. Which are grounds for dismissal. See Pyle v. Kansas, 87
LED 214, 317 U.S. Supreme Court ('December 7,1942). "The constitutional
requirement of due process was not satisfied where a conviction
was obtained by perjury." and Brady v. Maryland,373 U.S.83(1963)
(Suppression of evidence favorable to an accused violates ( j.
due process) and Toussie v. U.S.,(And Congress has declared a policy
that the statute of limitations should not be extended "except as
otherwise expressly provided by law."

11

Adolfo Avila

\ Case: 0:19-cv-03112-PJS-ECW

Document #: 58-0
of 19

Date Filed: 07/06/2021

Page 13

4) Judge Bush’s decision on what hohdisO'losiire: ivioiatea Omen)Process
on the Prosecutor Misconduct(Brady Violation) grounds is both
’’contrary to" and involved an "unreasonable application" of
clearly established federal law as determined by the Supreme Court
of the U.S. See Brady v. Maryland, 373 U.S. 83(1963).(Precedents)
In Brady v. Maryland, the Supreme Court of the U.S. ruled on what
nondisclosure by a prosecutor violates due process: "We now hold
that the suppression by the prosecution of evidence favorable to
an accused upon request violates due process where the evidence
is material either to guilt or to punishment, irrespective of the
good faith of the prosecution."
First request for Discovery on July 29,2014. Exhibit 14.
Second requestt.fo-r Discovery on June 3, 2015. Exhibit 15.
Third request for Discovery on September 8,2015. Exhibit 16.
Court ordered Discovery on September 14,2015. Exhibit 21.
Which Proceeutor Rick Maes is responsible for the proper Disclosure
of the evidence in this case. See Napue v. Illinois,360 U.S. 264.
(April 30,1959)."The prosecutor has the responsability and duty
to correct what he knows to be false and elicit the truth."
Supreme Court of the U.S.
The improper disclosure of the July 25,2011 interview of M.H.
allowed Officer Rolling to commit perjury at the only two omnibus
hearings in this case(June 30,2015 and March 14,2018) of when he
was first actually informed of MtfHi'isssexual abuse allegation.
See Exhibit 22. Proving the statute of limitations defense in'.;
this case is grounds for dismissal but it was prejudiced by
Prosecutor Rick Maes’s improper disclosure of the July 25,2011
interview of M.H. given to Petitioner after this two omnibus hearings.
12

;

Case: 0:19-cv-03112-PJS-ECW

Document#: 58-0
of 19

Date Filed: 07/06/2021

Page 14

The improper disclosure of the May 31,2006 affidavit of M.H.
(the mediocre redacted version Exhibit 8) allowed M.H. to commit
perjury at trial, See U.S. v. Dunnigan,No.91-1300(February 23,1993)
M.H. documented in her May 31,2006 affidavit:
Part E
1. When did you first have intercourse with the father of this
child? July
Which State? Mn City? Tracy County? Lyon
See Exhibit 8.(pg.2)
Which both Count I and Count II dates are before July 2001.
At trial M.H. testified she could still read through the redaction
but it was Prosecutor Rick Maes who intentionally suppressed the
favorable, material information prejudicing Petitioner’s Fundamental
Federal Rights to a fair trial. At the minimum Petitioner would .
of been convicted of one count and not two cutting the 24 year
sentence in half to 12 years

Quoting Petitioner,M.H. and Rick Maes:

Petitioner:” Yeah, you can still see through it.”
Maria:” Yes, I do."
Prosecutor Rick Maes:” I’d object, Judge.”
Judge Bush:" The: basis of your objection.”
Prosecutor Rick. Maes:" Well, we just heard it was scribbled out
so there's no answer to the question." See Exhibit 19.(pg.1.28)
See Brady v. Maryland, 373 U.S. 83(1963)”Suppression by prosecution
of evidence favorable to an accused upon request: violates due
process where evidence, is material either to guilt or punishment,
irrespective of good faith or bad faith of prosecution.”
U.S.C.A.Const. Amend. 14.
13

I

. Case: 0:19-cv-03112-PJS-ECW

Document #: 58-0
of 19

Date Filed: 07/06/2021

Page 15

All the elements constituting the offense(s) charged in the
July 3,2014 criminal complaint are detailed in the May 31,2006
affidavit of M.H.: Part A details the child's date of birth 3-6-02
and M.H.'s date of birth 12-29-1985 showing conception at 15. And
names Petitioner as the father. Which Part Dpoints out the(Exhibit 8)
significant relationship: "He married my mother". Which the
reciprocal report(mandated by law) to the Lyon County Sheriff's
Office reporting the act(s) was done on the same day of May 31,2006.
See Exhibit 10. Quoting Marry J. Stanton from the p.r.i.s.m.
activity sheet dated 8/11/2006.:
Begin Date: 5/31/2006
"Sent to Lyon County Sheriff for service

MJS"

activity sheet dated 8/24/2006.:
"Discussed with my Supervisor. I will not be sending to the
Private Process server at this time, we'll wait and see if the
Sheriff's Dept, gets the NCP served by 8/28/06."
MJS
With the 2006 Lyon County Sheriff's report datedMay 31,2006
Petitioner can prove the statute of limitations defense but
according to Chief Prosecutor Rick Maes it does not exist. Which
Petitioner knows it exists because he was served a copy of it on
May 20,2007. See Exhibit 9 and Exhibit 20.
See Brady v. Maryland, 373 U.S. 83(1963)"Suppression by
prosecution of evidence favorable to an accused upon request
violates due process) U.S.C.A.Const. Amend. 14.
Judge Nelson tried twice to get Petitioner's DNA in 2007 and it

V,’

was not for paternity establishment purposes. See Exhibit ll(pg3/4)
Quoting Judge Nelson:" continuing the matter which wasn't a
paternity establishment matter." See Exhibit ll(pg.3 and 4).
14

Case: 0:19-cv-03112-PJS-ECW

t

5)

Document#: 58-0
of 19

Date Filed: 07/06/2021

Page 16

The due process clause is violated when a defendant is

h

penalized for exercising his right to appeal by the imposition of
a more onerous sentence on retrial. See North Carolina v. Pearce,
395 U.S. 711, 725-26(1969). A presumption of vindictiveness
applies whensa defendant receives a more onerous sentence upon
retrial. See State v. Carver, 390 N.W.2d 431, 434(Minn.App.1986).
Judge Bush offered no explanation for Petitioner's sentence-he
did not state why he imposed two sentences, why he ran them
consecutively, or why he doubled the length of Petitioner's
original sentence. This is troubling because none of the
Smith factors-potential justifications for a longer sentenceapply here. Which Petitioner is a wartime(Gulf War) disabled
veteran with zero criminal history. Petitioner did make motions
in the Lyon County Court proceedings for the recusal of Judge Budi
from this case citing Judicial misconduct constituting a due
process violation by Judge Bush. Which would explain the
vindictiveness by Judge Bush towards Petitioner. See State v.
Carver, 390 N.W.2d 431, 434(Minn.App.1986) .State v. Johnson(2007)
6) Minnesota caselaw proves whitemen with the same type of crime
like in this case, their statute of limitations defense was
upheld. See State v. Keller,2018 Minn.App.Unpub,LEXIS 780 and
See State v. French,Court of Appeals,392 N.W.2d 596, No.CX-86-326
(1986 Minn.App.LEXIS 4697).
The fact that whitemen with the same type of crime, their statute
of limitations was upheld but Petitioner's was not is evidence of
discrimination.
15

Case: 0:19-cv-03112-PJS-ECW

Document#: 58-0
of 19

Date Filed: 07/06/2021

Page 17

Rule 1.2 of the Code of Judicial Conduct states that "[ajjudge
shall act at all times in a manner that promotes public confidence^
in the independence,integrity,and impartiality of the judiciary,
At the December 29,2015 hearing Judge Bush flat out lied in court
about giving Petitioner the 2006 Lyon County Sheriff’s report and
about doing the in-camera review. See (12-29-2015 transcript pg.9
lines 1 to 11 and pg.10 line 23 and pg.ll lines 1 and 2).
Quoting Judge Bush:The report referenced out of the paternity .
file" nhas been made available to you, and has been the subject
of court review."See Affidavit of prejudice dated July 5,2017.
Rule 1.1 of the Code of Judicial Conduct requires M[a]judge [to]
comply with the law,including the Code of Judicial Conduct."
Where Judge Bush’s "unreasonable application" of clearly established
state law pertaining to the statute of limitations defense violated
Rule 1.1 of the Code of Judicial Conduct constituting Judicial
Misconduct. Which it also violated Canon 2(A) ”[a]judge shall
respect and comply with the law and act at all times in a manner
that promotes public confidence in the integrity and impartiality
of the judiciary."
Where Judge Bush's "unreasonable application" of clearly established
federal law pertaining to the statute of limitations defense in
violation of Toussie v. U.S.,397 U.S. 112,25 L.Ed.2d 156(1970)
violated Canon 2(A) constituting Judicial Misconduct.
Where Judge Bush's "unreasonable application" of clearly established
federal law pertaining to perjury in violation of U.S. v. Dunnigan,
No.91-1300.(February 23,1993).violated Canon 2(A) constituting
Judicial Misconduct. And the "unreasonable application" of clearly
established federal law pertaining to Prosecutor Misconduct in
violation of Brady v. Maryland, 373 U.S. 83(1963) in violation
of Canon 2(A) constituting Judicial Misconduct.
16

Case: 0:19-cv-03112-PJS-ECW

Document #: 58-0
of 19

Date Filed: 07/06/2021

Page 18

Quoting Judge Bush from his order dated September 8,2015:
"Said records sought by defendant are protected by the Data
Practice Act and privilege, and are not otherwise accessible
by Defendant."
Quoting Judge Bush from his order dated February 19,2018:
"Itris true that the Court did not order the release of the files
as the Court judged that to be unnecessary because the Defendant
already had access to that file if the Defendant would request it."
It was Judge Bush who denied the discovery disclosure request
specifically for court file #556. See Exhibit 21(date of request)
Quoting Chief Public Defender Cecil Naatz from his letter:
"The Judge would not grant access to the file."
Quoting Public defender A.J. Kasprick from his e-mail:
"The Judge did not "open the file" in the Order."
Another tactic used by Judge Bush is the tampering of the record
so to confuse the record to withhold information favorable to
Petitioner. In pg.173 of the Trial transcript dated April 25,2018
Line 18 A. But I didnit know who at the time. I didn't know that
it was "Maria", was stated by Officer Rolling not
by Petitioner. Which the correct statements:
13
14
15
16
17
18
19

A.
Q.
A.
Q.
A.
A.

"That I had first heard about it?"
"Yes."
"I had heard of a rumor."
"But it was pertaining to her."
"Yes."
"But I didn't know who at the time. I didn't know that it was
"Maria"."

17

ISAIAH 56:1
Thus says the Lord:
"Keep justice,and do righteousness,"

;

Case: 0:19-cv-03112-PJS-ECW

Document #: 58-0
of 19

Date Filed: 07/06/2021

Page 19

This type of misconduct, for a complete disregard for the rule
of law, undermines the integrity of the judicial system and its
officers. This type of misconduct undermines the public trust
and confidence. See In re Ginsberg, 690 N.W.2d at 550; In re
Winton, 350 N.W.2d at 344; In re Gillard, 271 N.W.2d 785, 805
[843 N.W.2d 569](Minn. 1978) and In re Anderson, 312 Minn. 442,
252 N.W.2d 592(1977). See Affidavit of Prejudice(July 5,2017)
The fact that Judge Bush intentionally departed from clearly
established state and federal laws proves the Judicial Misconduct .
The fact that whitemen with the same type of crime in Minnesota,
their statute of limitations defense was upheld!,1, but Petitioner's
was not is evidence of discrimination.
The fact that Judge Bush doubled Petitioner's sentence from 12
to 24 years on remand with no legal bases or explanation proves
the vindictiveness.See State v. Carver,390N.W.2d (Minn.App.1986).
The fact that Judicial Misconduct targeting,cwith vindictivenessll
and discrimination a person of color proves the systemic racism.
C

CONCLUSION

Petitioner respectfully requests for the relief that this illegal
Lyon County Judgement contrary to well settled state and federal
laws be overturned and Petitioner be released from custody to
correct the infringement by Judge Bush on Petitioner's Federal
Rights protected by the Due Process Clause in the 14th Amendment
in the United States Federal Constitution.
I declare under penalty of perjury that everything I have stated
in this Memorandum of law is true and correct.28 U.S.C.S.&1746.

dated: £

signature:

U.S. District Court
District of Minnesota
Clerk's Office
18
300 South Fourth St.,Suite 202
Minneapolis, Mn 55415

Cental ^ r
Adolfo G. Avila Jr.
0.I.D.#248824
MCF-Rush City
7600 525th st.
Rush City,Mn 55069

* Case: 0:19-cv-03112-PJS-ECW

Document #: 58-1
2

Date Filed: 07/06/2021

Page 2 of

2.

Signed this

30

day of June

2 021

Signature of Party
Mailing Address

Adolfo G. Avila Jr.
0.I.D.#248824
MCF-Rush City
7600 525th st.
Rush City,Mn 55069

Telephone Number

Note: All parties filing the Memorandum of Law must date and sign the Memorandum and
provide his/her mailing address and telephone number. Attach additional sheets of paper as
necessary. The Memorandum of Law must be served on each party, together with the Notice of
Hearing, Motion and other accompanying documents, if any.

2

Case: 0:19-cv-03112-PJS-ECW

Document #: 29-0
1

Date Filed: 01/13/2021

Page 1 of

UNITED STATES DISTRICT COURT
District of Minnesota

Adolfo Gutierrez Avila, Jr.,

JUDGMENT IN A CIVIL CASE
Petitioner,
Case Number: 19-cv-3112 PJS/ECW

v.
Vicky Janssen,
Respondent.

□ Jury Verdict. This action came before the Court for a trial by jury. The issues have been tried
and the jury has rendered its verdict.
K Decision by Court. This action came to trial or hearing before the Court. The issues have
been tried or heard and a decision has been rendered.
IT IS ORDERED AND ADJUDGED THAT:
1.

The Petition (Dkt. 1) is DENIED and that this action is DISMISSED

WITH PREJUDICE.
2.

Petitioner’s Motions to Expand the Record (Dkts. 12, 16) is DENIED.

3.

No certificate of appealability be issued.

Date: 1/13/2021

KATE M. FOGARTY, CLERK

Case: 0:19-cv-03112-PJS-ECW

Date Filed: 01/26/2021

Document #: 34-0

Page 1 of

1

UNITED STATES DISTRICT COURT
District of Minnesota

JUDGMENT IN A CIVIL CASE

Adolfo Gutierrez Avila, Jr.,
Petitioner,

Case Number: 19-cv-3112 PJS/ECW

v.
Vicky Janssen,
Respondent.

□ Jury Verdict. This action came before the Court for a trial by jury. The issues have been tried
and the jury has rendered its verdict.
g| Decision by Court. This action came to trial or hearing before the Court. The issues have
been tried or heard and a decision has been rendered.
IT IS ORDERED AND ADJUDGED THAT:
1. The order and judgment entered on January 13, 2021 [ECF Nos. 28-29] are
VACATED.
2. Petitioner's 28 U.S.C. § 2254 petition for writ of habeas corpus [ECF No. 1]
is DISMISSED WITH PREJUDICE.
3. Petitioner's motions to expand the record [ECF Nos. 12,16] are DENIED.
4. No certificate of appealability will issue.

Date: 1/26/2021

KATE M. FOGARTY, CLERK

Case: 0:X9-cv-03112-PJS-ECW

Document #: 61-0
2

Date Filed: 07/08/2021

Page 1 of

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
ADOLFO GUTIERREZ AVILA, JR.,

Case No. 19-CV-3112 (PJS/ECW)

Petitioner,
ORDER

v.
VICKY JANSSEN, MCF-RC Warden,
Respondent.

Petitioner Adolfo Gutierrez Avila, Jr., was convicted in state court of two counts
of criminal sexual conduct and was sentenced to 144 months in prison on each count, to
be served consecutively. Avila filed a petition for a writ of habeas corpus under 28
U.S.C. §2254. ECFNo. 1. The Court adopted the Report and Recommendation of
Magistrate Judge Elizabeth Cowan Wright and dismissed his petition with prejudice.
See ECF No. 32. Avila then filed two motions for relief from judgment under Fed. R.
Civ. P. 60, which the Court denied. ECF Nos. 35, 39, 50, 53. Avila also appealed to the
United States Court of Appeals for the Eighth Circuit, which denied his motion for a
certificate of appealability and dismissed his appeal. ECF No. 55.
This matter is before the Court on Avila's third Rule 60 motion for relief from
judgment. Avila makes the same types of arguments in this motion as he did in his
earlier motions, and it is accordingly denied for the same reasons. See ECF Nos. 39, 53.

r
f

Case: 0:19-cv-03112-PJS-ECW

Document#: 61-0
2

Date Filed: 07/08/2021

Page 2 of

ORDER
Based on the foregoing, and on all of the files, records, and proceedings herein,
IT IS HEREBY ORDERED THAT:
1.

Petitioner's motion for relief from judgment under Fed. R. Civ. P. 60 [ECF
No. 57] is DENIED.

2.

To the extent a certificate of appealability is necessary, no certificate will
issue.

Dated: July 8, 2021

s/Patrick T. Schiltz
Patrick J. Schiltz
United States District Judge

-2-

> r

APPENDIX E
JUDGEMENT ENTERED April 22,2021
U.S. COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

• t
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 21-1520

Adolfo Gutierrez Avila, Jr.
plaintiff - Appellant
v.
Vicki Janssen, MfF-RC Warden
Defendant - Appellee
Appeal from U.S. District Court for the District of Minnesota
(0:19-cv-03112-PJS)
JUDGMENT

Before LOKEN, SHEPHERD, and KOBES, Circuit Judges.

This appeal comes before the court on appellant’s application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied. The appeal is dismissed.
April 22, 2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/si Michael E. Gans

•- • «£'

APPENDIX F
PETITION FOR REHEARING EN BANC
ORDER DENYING REHEARING EN BANC
Dated May 27,2021

No: 21-1520
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

Adolfo Gutierrez Avila Jr.
Appellant
v.
Vicki Janssen, MCF-RC Warden
Appellee
PETITION FOR REHEARING EN BANC
Petitioner respectfully requests for a rehearing En Banc:
Because the panel decision in this case conflicts with the U.S. Supreme Court
Decisions specifically (Toussie v. U.S.,397 U.S. Supreme Court 112(1970))
pertaining to the governing legal principle pertaining to the statute of limitations
defense and (U.S. v. Dunnigan, No.91-1300 Supreme Court of the U.S. February
23,1993) pertaining to the governing legal principle pertaining to perjury. It also
contradicts every U.S. Supreme Court or Federal Court Decision granting a Federal
writ to protect the Fundamental Federal Due Process Rights protected by the Due
Process Clause in the 14th Amendment of the U.S. Federal Constitution.
Thank you.

No: 21-1520
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
Adolfo Gutierrez Avila Jr.
Appellant
v.
Vicki Janssen, MCF-RC Warden
Appellee

Appeal from U.S. District Court for the District of Minnesota
(0:19-CV-03112-PJS)

PETITION FOR REHEARING EN BANC
Adolfo Gutierrez Avila Jr.

Vicki Janssen

Pro Se Petitioner

MCF-RC Warden

O.I.D. 248824

MCF-Rush City

MCF-Rush City

7600 525th St

7600 525th st.

Rush City, Mn 55069

Rush City, Mn 55069
Appellant

Appellee

TABLE OF CONTENTS

TABLE OF AUTHORITIES

11

SUMMARY OF THE ARGUMENT
THE ARGUMENT

1

I.
UNREASONABLE APPLICATION OF STATE LAW.....2
2
A. STANDARD OF REVIEW
II.

UNREASONABLE APPLICATION OF FEDERAL LAW..3
(statute of limitations)
3
A. STANDARD OF REVIEW

III.

UNREASONABLE APPLICATION OF FEDERAL LAW. .4
(Perjury)
5
A. STANDARD OF REVIEW

CONCLUSION

6

INMATE FILING

7

CERTIFICATE OF COMPLIANCE

7

CERTIFICATE OF SERVICE

7

1

TABLE OF AUTHORITIES

MINNESOTA STATUTES:
1

Minn.Stat. & 628.26, Subd. (e) (2009).................................
Minn.Stat. & 626. 556.Reporting of Maltreatment of Minors

1,2,5

Minn. Stat. & 626. 556.Subd.2. Defmitions(m).....................

.2

FEDERAL DECISIONS:
Toussie v. United States,
397 U.S. of the Supreme Court 112(1970)

1,3,5

Dunnigan v. United States,
No.91-1300 Supreme Court of the U.S. (February 23,1993) ...1,4,5
Lindh v. Murphy,
2,3,5

96F.3 856(7th Cir. 1996)
Teague v. Lane,

2,3,5

489 U.S. 288, 310(1989)
William v. Taylor,

529 U.S. 362 Supreme Court of the U.S.) April 18,2000)......3,4

OTHER:
4

18 & 1621.Perjury generally
Pyle v. Kansas,
87 LED 214,317 U.S. 213-216(December 7,1942)

li

4

SUMMARY OF THE ARGUMENT
The record established the fact that the particular conduct that constitutes
“the offense” charged in this case the sexual-penetration of M.H. was reported to
the local law enforcement authorities (Tracy Police Officer Rolling) in 2001.
Triggered the statute of limitations three-year period in section 628.26(e) (2009).
But Judge Bush labeled the report of sexual abuse of M.H. a “rumor” to undermine
the statute of limitations claim outcome with the “unreasonable application” of
clearly established state laws (M.S.626. 556.Reporting of Maltreatment of Minors)
and clearly established federal laws (Toussie v. U.S./Dunnigan v. U.S.)
constituting an intentional violation of Rights guaranteed to Petitioner by the Due
Process Clause in the 14th Amendment.

Quoting Officer Rolling from the July 25,2011 interview of M.H.: See
Exhibit 2(pg.9)
Officer Rolling:” but did you find out you were pregnant in Marshall
or Tracy?”
Maria:” Tracy, when I was in school in Tracy.”
Officer Rolling:” Yup. And that is where you guys were living when I
first heard about it. You guvs were living in the trailer court.”
The evidence in this case is overwhelming that proves the fact of the matter is “the
offense ” was reported to Officer Rolling in 2001 but Judge Bush labeled it a
“rumor” to prejudice the statute of limitations claim outcome.

ARGUMENT
I. According to the laws of mandatory reporting (M.S.626. 556.Reporting of
Maltreatment of Minors):
(1) Any person may voluntarily report.
(2) Any report should be of sufficient content.
(3) Any communication that describes any type of abuse of a minor(s)
constitutes a report.
In the laws of mandatory reporting (M.S.626. 556.Reporting of Maltreatment of
Minors) there is no substantial basis at all for the conclusion to label a report of
sexual abuse of a minor a “rumor”. Which to the contrary it is state law that any
information that describes any type of abuse of a minor(s) constitutes a report.
Thus, Judge Bush’s ruling to label the report of sexual abuse of M.H. a “rumor” is
completely wrong and completely the opposite of the clearly well settled state laws
(M.S.626. 556.Reporting of Maltreatment of Minors).
See M.S.626. 556.Subd.2. Definitions, (m)
“Report” means any communication received by the local welfare, police
department, county sheriff, or agency responsible for the child protection pursuant
to this section that describes neglect or physical or sexual abuse of a child....
A. STANDARD OF REVIEW
Reasonableness Standard
APPOSITE AUTHORITY
Lindh v. Murphy, 96 F.3 856 (7th Cir.1996).
STANDARD OF CORRECTNESS
The law in effect at the time the decision became final.
APPOSITE AUTHORITY
Teague v. Lane, 489 U.S. 288,310(1989)

II.

Judge Bush’s Judicial misconduct also involved an “unreasonable

application” of clearly established federal laws as determined by the Supreme
Court of the U.S. See Toussie v, U.S.,397 U.S.l 12,25L.E.D.2dl56(1970). Which it
is the correct governing legal principle pertaining to the statute of limitations but
Judge Bush’s “unreasonable application” of this Supreme Court decision to the
facts of this case prejudiced the statute of limitations claim. The record clearly
established the fact that the same conduct that constitutes “the offense” charged in
this case the sexual penetration of M.H. was reported to the local law enforcement
authorities (Tracy Police Officer Rolling) in 2001 but Judge Bush ruled it a
“rumor” resulting in an “unreasonable application” of clearly established state
and federal laws. Judge Bush’s ruling to label the report of sexual abuse of M.H. a
“rumor” seriously prejudiced Petitioner’s statute of limitations claim outcome.
This case falls under section 2254(d)(1) resulted in a decision that was contrary to,
or involved an “unreasonable application” of clearly established Federal law, as
determined by the Supreme Court of the United States; or
See Williams v. Taylor, 529 U.S. 362 Supreme Court of the U.S. (April 18,2000)
“under 2254(d)(l)’s “unreasonable application” clause, a federal court may
grant a writ of habeas corpus if a state court identifies the correct governing
legal principle from the Supreme Court’s decisions but unreasonably applies
that principle to the facts of the prisoner’s case.”
A. STANDARD OF REVIEW
Reasonableness Standard
APPOSITE AUTHORITY
Lindh v. Murphy. 96 F.3 856 (7th Cir.1996).
STANDARD OF CORRECTNESS
The law in effect at the time the decision became final.
APPOSITE AUTHORITY
Teague v. Lane. 489 U.S. 288,310(1989)

III. Another “unreasonable application” by Judge Bush that also prejudiced the
statute of limitations claim was the “unreasonable application” of clearly
established federal law as determined by the Supreme Court of the U.S. in relation
to the governing legal principle pertaining to perjury: See 18 & 1621 Perjury
See U.S. v. Dunnigan, No.91-1300 Supreme Court of the U.S. (February 23,1993).
Quoting Officer Rolling from the June 30,2015 omnibus hearing: See Exhibit 5
Prosecutor Rick Maes:” Now, Officer, can you tell us when this matter was first
reported to the Law Enforcement Agency?”
Officer Rolling:” I received the report in July 2011.”
Prosecutor Rick Maes:” Was that the first time you were notified of any alleged
misconduct involving Mr. Avila and the alleged victim?”
Officer Rolling:” That was the first time it was reported to me.”
Quoting Officer Rolling from the July 25,2011 interview of Maria: See Exhibit 2
Officer Rolling:” but did you find out you were pregnant in Marshall or
Tracy?”
Maria:” Tracy, when I was in school in Tracy.”
Officer Rolling:” Yup. And that is where you guys were living when I first heard
about it. You guys were living in the trailer court.”
Judge Bush’s “unreasonable application” of this Supreme Court decision
pertaining to perjury to the facts of this case also prejudiced the statute of
limitations claim. Clearly Judge Bush intentionally prejudiced this case.
This case falls under section 2254(d)(1) resulted in a decision that was contrary to,
or involved an “unreasonable application” of clearly established Federal law, as
determined by the Supreme Court of the United States; or
See Williams v. Taylor, 529 U.S. 362 Supreme Court of the U.S. (April 18,2000)
“errors that undermine confidence in the Fundamental fairness of the state
adjudication certainly justify the issuance of the federal writ.”

A. STANDARD OF REVIEW
Reasonableness Standard
APPOSITE AUTHORITY
Lindh v. Murphy, 96 F.3 856 (7th Cir.1996).
STANDARD OF CORRECTNESS
The law in effect at the time the decision became final.
APPOSITE AUTHORITY
Teague v. Lane. 489 U.S. 288,310(1989)
See Pyle v. Kansas,87 LED 214,317 U.S. 213-216 (December 7,1942)
” Petitioner’s application for a writ of habeas corpus alleged facts which, if
proven, entitled him to release from prison because he was held pursuant to a
court judgement rendered in violation of rights guaranteed him by the due
process clause of the 14th Amendment of the Federal Constitution.”
The Lyon County Judgement is an illegal Judgement for it is completely contrary
to well settled state laws (M.S.626. 556.Reporting of Maltreatment of Minors) and
contrary to well settled federal laws (Toussie v. U.S./Dunnigan v. U.S.).
Judge Bush’s Judicial misconduct was not recorded by a smart phone but it is
clearly recorded by the record in this case. The Lyon County Judgement was not
correct when rendered.

5

CONCLUSION
Petitioner respectfully requests for the relief that this illegal Lyon County
conviction contrary to well settled state and federal laws be overturned and
Petitioner be released from custody to correct the infringement by Judge Bush on
Petitioner’s Fundamental Federal Due Process Rights protected by the Due Process
Clause in the 14th Amendment of the U.S. Federal Constitution.
I declare under penalty of perjury that everything I have stated in this Petition for
rehearing En Banc is true and correct.28 U.S.C.S. & 1746.
Dated: ,

signature:
Adolfo G. Avila Jr.
O.I.D.248824
MCF-Rush City
7600 525st.
Rush City, MN 55069

U.S. Court of Appeals
For the Eighth Circuit
Office of the Clerk
111 South 10th St., Room 24.329
St. Louis, Missouri 63102

6

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 21-1520
Adolfo Gutierrez Avila, Jr.
Appellant
v.
Vicki Janssen, MCF-RC Warden
Appellee

Appeal from U.S. District Court for the District of Minnesota
(0:19-cv-03112-PJS)
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
Judge Stras did not participate in the consideration or decision of this matter.
May 27,2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

